<html>
<title> - REVIEW OF THE DEPARTMENT OF TRANSPORTATION'S FISCAL YEAR 2012 BUDGET</title>
<body><pre>[Senate Hearing 112-165]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-165

  REVIEW OF THE DEPARTMENT OF TRANSPORTATION'S FISCAL YEAR 2012 BUDGET

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE
71-498 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 8, 2011....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     2
Statement of Senator Lautenberg..................................     3
Statement of Senator Thune.......................................     4
Statement of Senator Cantwell....................................     5
Statement of Senator Ayotte......................................    13
Statement of Senator Begich......................................    17
Statement of Senator Klobuchar...................................    20
Statement of Senator Pryor.......................................    22
Statement of Senator Snowe.......................................    24

                               Witnesses

Hon. Ray LaHood, Secretary, U.S. Department of Transportation; 
  Accompanied by Christopher Bertram, Assistant Secretary for 
  Budget, U.S. Department of Transportation......................     6
    Prepared statement...........................................     7

                                Appendix

Response to written questions submitted to Hon. Ray LaHood by:
    Hon. John D. Rockefeller IV..................................    29
    Hon. Amy Klobuchar...........................................    32
    Hon. Maria Cantwell..........................................    32
    Hon. Tom Udall...............................................    36
    Hon. Mark Begich.............................................    38
    Hon. Kay Bailey Hutchison....................................    39
    Hon. John Thune..............................................    39
    Hon. Roger F. Wicker.........................................    40

 
                             REVIEW OF THE
                     DEPARTMENT OF TRANSPORTATION'S
                        FISCAL YEAR 2012 BUDGET

                              ----------                              


                         TUESDAY, MARCH 8, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Welcome, Mr. Secretary.
    Let me just give a not brief opening statement, but I will 
make it brief by leaving out part of it.
    We had a very interesting discussion in the Finance 
Committee this morning. We had three economists and then a 
lawyer who knew a lot of economics. And the whole principle--
and I am going to get hit over the head by the gentlelady on my 
left when I say this, but the whole principle was how do you 
increase jobs. I suggested that if you make cuts, but those 
cuts include things like America COMPETES and certain 
transportation related programs that create jobs, the earned 
income tax credit, the child tax credit, et cetera--and I asked 
him if you did not cut out some of those types of programs--and 
we obviously cannot say them all here, but if you did not cut 
them out--but if you did cut the budget way, way, way back, 
which would help America grow more in terms of work? And he 
said what you said, Senator. And I thought that was very, very 
interesting because that sort of question has not been enlarged 
except through vitriol, not from Senator Hutchison. She and I 
are a perfect working machine. But that struck me as 
interesting.
    Anyway, you are right in the middle of it. We started out 
with canals early, then went on to railroads, and then went on 
to the interstate highway system, and then on to aviation, and 
now we have got to sort of do a lot of all of the above, 
highways, bridges, high-speed Amtrak. And of course, they cost 
money.
    But on the other hand, in West Virginia I would say, 
Senator Lautenberg, that probably 70 percent of our bridges are 
rusted and dangerous. Seventy percent, including some which are 
still wood. So we are at a very dangerous point. If we do not 
make substantial improvements, we are not going to create what 
is necessary for job creation.
    I am very pleased that the administration's Fiscal Year 
2012 Budget recognizes the importance of transportation to our 
future well-being. And enough said on that. The President 
proposes to spend a record $556 billion on surface 
transportation programs, literally doubling almost what we 
spent in the last 6 years of authorization. A very bold move, a 
job-creating move from my point of view, smart, and necessary 
for America's overall way to the future. I support the 
administration's vision.
    On surface transportation policy, they require the DOT to 
be strategic in its decisionmaking in how it awards taxpayers' 
dollars to transportation projects.
    I think the administration was very bold in their 
nationwide passenger rail network concept. It seems difficult--
a fast, high-speed railroad, and yet other countries have it. 
We ought to. People are increasingly traveling on railroads, 
and that is a very important part of our system. At some level, 
that has to have some federal support. Freight are very 
profitable, passengers less so. Both important. Captive 
shippers--that problem still important.
    Obviously the NextGen system on the FAA, which we just 
passed, so therefore there is not a huge need to talk about 
that from my point of view. But the NextGen--that is money that 
you have got to have. You cannot do it just with a strong will.
    I also want to commend the administration for its emphasis 
on improving the safety of our nation's transportation system. 
33,000 people died in motor vehicle crashes in 2009. The number 
has been going down. That is good. It is still unacceptably 
high--that is bad. Motor vehicle crashes are the leading cause 
of death for individuals aged 3 through 34. I was rather 
stunned by that.
    So the importance of NHTSA. I am pleased that the budget 
calls for more than a 20 percent increase in the vehicle safety 
budget that NHTSA has. Hearings last year revealed some 
weaknesses, readily admitted-to weaknesses, and they have to be 
able to get the software, people, and engineers that they need.
    So I am for rebuilding America. I am trying to be a 
responsible Senator. I believe in that. I also somehow just 
believe enormously that you have to have certain pieces in 
place.
    I thank the Secretary for being here today, and I turn to 
Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    If what you said earlier today is that we should agree on a 
cap on spending and then determine what priorities would spur 
job creation and spur our economy, I agree with you. I think 
that is exactly what we ought to be doing, and I do think the 
cuts in spending need to occur. Let us put a cap on it and then 
decide what is going to increase jobs.
    Now, I appreciate that you are here, and I also appreciate 
your accessibility. I have never called you that you did not 
respond, and I appreciate that very much.
    I am looking at a 6-year $556 billion surface 
transportation reauthorization proposal. I think having 
separate accounts that replace the Highway Trust Fund could be 
a good idea: highway, rail, transit, and then a national 
infrastructure bank. But I do not see any funding mechanism. 
And of course, we know how the highway bill is funded with gas 
taxes, but where are you going to fund the rail and the transit 
portions of the ask that you are making? I look at the proposal 
for $50 billion in up-front spending on transportation projects 
in Fiscal Year 2012, and again, I think a sustainable source of 
funding is the real question here.
    Developing a high-speed rail program is important. We have 
already appropriated $13 billion for high-speed rail and 
innercity rail projects. This adds $53 billion over 6 years, I 
believe, in rail. But I think we have got to, again, see some 
kind of a mechanism to fund this rail that has an association 
with who is getting the service.
    In aviation, the Chairman and I worked very hard to pass 
the reauthorization of the FAA bill because we both agree on 
NextGen and the importance of putting the next generation of 
technology into our air traffic control system. America needs 
to be a leader. We are over 50 percent of all aviation traffic 
in the world. We can provide efficiencies if we get NextGen. 
But I just want to point out that in your budget, as I see it, 
there is not a correlation between the priority of NextGen and 
the FAA budget as a whole. It appears that you are cutting 
airport improvement funding, research funding, and capital 
programs in the facilities and equipment account, but the 
operations account is growing exponentially. The budget 
proposal for FAA's operations account would provide a $400 
million increase over Fiscal Year 2010, at the expense of all 
the other capital accounts in the FAA. So it just seems to me 
that our priority for infrastructure in the FAA, which is the 
correct one, is not being supported by the budget priorities 
that are coming forward today.
    So I look forward to, of course, working with you and 
trying to maybe get a budget that we can all agree has the 
right priorities. I do think we have got to address the funding 
sources for--other than highway, which does have a funding 
source--the other modes of transportation which are very 
important, but how are we going to have a partnership in 
funding those priorities?
    So thank you, Mr. Chairman, for holding this hearing.
    Thank you, Mr. Secretary, for being here, and I will look 
forward to working with you. Thank you.
    The Chairman. Thank you, Senator Hutchison.
    Just on a seniority basis, I would call on Senator 
Lautenberg, then Senator Thune, if he is here, then Senator 
Cantwell, who is Chair of the Aviation Subcommittee--Lautenberg 
of Transportation--and then also Senator DeMint, should he be 
here. So Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary and Mr. Bertram.
    Our country's roads, rails, and runways keep our economy 
moving, but much of the infrastructure is now in a crumbling 
state and House Republicans are not the least bit interested in 
rebuilding it. Instead, they seek billions of dollars in cuts, 
a reckless plan that is going to leave our transportation 
network to despair. This risky approach would send pink slips 
to hundreds of thousands of transportation workers, including 
more than 3,000 in the state of New Jersey. It would also slash 
funding for Amtrak, a vital national transportation service 
that takes 8 million cars off our roads and keeps 50,000 
flights out of our skies each year. And we do not need more 
congestion on our roads. We do not need more delays at our 
airports, and we do not need more job losses.
    We should be focused on rebuilding our economy and creating 
good jobs. President Obama and Secretary LaHood--you have done 
a good job, Mr. Secretary--know this and that is why the bold 
vision for the future includes more investment in 
transportation, including the creation of a world-class high-
speed rail system. And as Chairman of the Subcommittee on 
Surface Transportation, I applaud this dedication to 
strengthening rail service in our country. That is why I 
believe we have also got to invest in projects that will 
strengthen our economy like the proposed Gateway Tunnel from my 
state to New York. This visionary project will serve both 
commuters in New Jersey and high-speed rail passengers 
throughout the Northeast Corridor.
    House Republicans say we cannot afford these investments 
right now. It is a short-sighted view in my estimation. It 
ignores past achievements like the George Washington Bridge, 
which was built during the Depression. And thank goodness they 
did it. It helped provide jobs and it helped provide movement 
within the Northeast Corridor. Their approach also ignores our 
responsibility to help Americans get back to work, especially 
in the construction industry where more than one in five 
workers are unemployed.
    The bottom line is we have an opportunity to fix our 
broken-down infrastructure to get millions of workers back on 
the job. We also have a duty to the next generation of 
Americans who are counting on us to make these investments in 
their future.
    So I look forward to hearing from the Secretary about how 
we can make the smart transportation decisions needed to keep 
our country moving forward.
    Thanks, Mr. Chairman.
    The Chairman. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    Secretary LaHood, welcome. Nice to have you back and also 
nice to welcome back Assistant Secretary Bertram who spent some 
time up here with this committee.
    I appreciate your appearing before us and look forward to 
hearing what you have to say. We know we have heard from you 
once at the Budget Committee and probably will eventually at 
the Finance Committee, I am guessing, as well.
    But just a couple of observations, if I might, Mr. 
Chairman, about the administration's budget for 2012. It does 
propose some sweeping changes and massive increases in funding 
levels for DOT programs. At the heart of the budget is a 6-year 
$556 billion surface transportation reauthorization proposal. 
This proposal would require an additional $231 billion in the 
Highway Trust Fund which would be renamed the Transportation 
Trust Fund over a 6-year period. The reauthorization also 
includes $53 billion for passenger rail at a time when many 
states are canceling projects because of budgetary problems.
    I am particularly concerned by the $50 billion up-front 
transportation infrastructure plan for 2012 that sounds very 
much like another stimulus program. Unfortunately, the 
administration has left unanswered the most obvious and 
pressing question, and that is how do we pay for these huge 
increases. In fact, this proposal appears to be less a budget 
and more of a transportation wish list. In a time of tight 
budgets and fiscal constraint, we simply cannot impose new 
taxes or fees on the American people and our businesses who are 
still struggling to emerge from a deep recession.
    Beyond the lack of funding for DOT proposals, I have 
several other specific concerns that I hope we can get 
addressed this afternoon. I understand the administration has 
again proposed a rail safety user fee on the railroads to 
offset the FRA's rail safety program expenses. In my view, this 
is a matter more appropriately addressed by this committee as 
part of reauthorizing legislation after a careful policy debate 
and should not be counted as expected revenue in the DOT budget 
proposal.
    Additionally, I am concerned about the creation of a $30 
billion national infrastructure bank as part of the new 
Transportation Trust Fund. I would request a careful review of 
the policy implications of this program before proceeding. 
Frankly, I have great reservations about this type of fund 
which I believe would principally benefit large metropolitan 
areas and ignore the needs of rural states like my own.
    Mr. Secretary, thank you again for being with us today. I 
look forward to continuing to work with DOT to address our 
nation's transportation needs.
    And, Mr. Chairman, I thank you for holding today's hearing.
    The Chairman. Thank you, Senator Thune.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you. Thank you for your work on 
the Mexican trucking issue, something of importance to growers 
in the Pacific Northwest, and I am sure I will get a chance to 
ask you a question about that.
    I also just wanted to raise that last time you were before 
the Committee, we raised the issue of national freight 
mobility. And working, obviously, with the subcommittee 
chairmen, Senator Lautenberg and Senator Murray, we introduced 
the Freight Act last year. This bill recognizes the role that 
ports play in moving freight that are obviously necessary and 
the infrastructure that goes along with it. Obviously, it is 
something that creates jobs and a very much needed boost to our 
economy.
    I know that you will have a chance to address some of these 
issues, but a GAO report in 2003 cited specific barriers to 
inhibiting intermodal transportation, such as limited federal 
funding, targeted projects, limited collaboration, and limited 
ability to evaluate projects.
    I hope we will hear from you today about the Department's 
current freight strategy, orientation on highway corridors and 
multimodal, where the coordination within the administration 
lies on such issues, and what the Department's intentions are 
to creating freight mobility programs. I think these types of 
prioritizations have worked well for our economy and needs of 
making infrastructure improvements that are tied directly to 
jobs. So I will look forward to hearing within this budget 
proposal the priorities that you can give to that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    We are going to close the statements there and turn 
directly to you, Mr. Secretary.

            STATEMENT OF HON. RAY LaHOOD, SECRETARY,

       U.S. DEPARTMENT OF TRANSPORTATION; ACCOMPANIED BY

          CHRISTOPHER BERTRAM, ASSISTANT SECRETARY FOR

           BUDGET, U.S. DEPARTMENT OF TRANSPORTATION

    Secretary LaHood. Thank you, Mr. Chairman and Ranking 
Member Hutchison and members of the Committee. Thank you for 
the opportunity to discuss President Obama's Fiscal Year 2012 
budget request for the U.S. Department of Transportation.
    Just a few weeks ago, President Obama delivered a powerful 
message in his State of the Union. He said that for America to 
win the future, our citizens and companies need the safest, 
fastest, and most reliable ways to move goods and information. 
He reminded us if we build it, they will come. If we want 
businesses to open shop and hire our families and friends and 
neighbors, we have to invest in our roadways, railways, and 
runways. We have to invest in 21st century buses, streetcars, 
transit systems, in next generation technology for our skies 
and in sidewalks, and bike paths that make our streets more 
livable.
    All of this is included in the President's $129 billion 
2012 budget for the U.S. Department of Transportation, designed 
as the first installment of a bold 6-year $556 billion 
reauthorization proposal.
    Now, to make room for these essential investments, 
President Obama's 2012 budget proposes the lowest relative 
level of domestic spending since President Eisenhower was in 
office 6 decades ago. That was 10 administrations ago. The 
simple fact is that we have to cut and consolidate things that 
are not growing the economy, creating jobs, or making it easier 
to do business in order to pay for the things that are. So at 
the Department of Transportation, President Obama's budget 
slashes red tape. It consolidates more than 50 programs, and it 
includes reforms that will accelerate project delivery and 
empower local communities.
    Of course, our major objective is to make investments in 
tomorrow that expand economic opportunity today, to dream big 
and to build big. On the cover of our budget, there is a 
picture of a bridge that crosses the Hoover Dam. It connects 
Nevada and Arizona. Seven years ago or more, people began 
planning for this bridge, and if it were not for the big 
thinkers and the big builders of generations ago, we would not 
have had the opportunity to dedicate this. That is what this 
budget is about. That is what this vision is about: big and 
bold just like people who came before us who had big visions, a 
big, bold view of how we put people to work and how we build 
America's infrastructure.
    Our budget keeps us on track toward a national high-speed 
rail system with an $8 billion investment in 2012 and a $53 
billion investment during the next 6 years. It increases 
resources for highway and bridge improvements by 48 percent and 
increases funding for affordable, efficient, sustainable bus, 
streetcar, and transit systems by 126 percent. It includes a 
$50 billion up-front boost to keep our recovery moving in the 
short-term and a $30 billion national infrastructure bank that 
will finance major projects of national or regional 
significance over the long run.
    At the same time, safety is and always will be our top 
priority. President Obama's budget renews our commitment to 
prevent traffic crashes with resources for our ongoing campaign 
against distracted driving, drunk driving, and to promote 
seatbelt use. The President's proposal requests new authority 
for the Federal Transit Administration to ensure the safety of 
rail transit riders across America, and it gives the Federal 
Motor Carrier Safety Administration stronger capacity to keep 
commercial traffic safe.
    Finally, we are dedicated to doing all of this without 
passing on another dime of debt to our children and 
grandchildren. For the first time, transportation spending will 
be subject to paygo provisions that ensure the dollars we give 
out do not exceed the dollars coming in.
    These are just a few components of the President's plan. 
They reflect a much larger point: America's transportation 
system is at a crossroads. Our choice is not between policies 
on the left or policies on the right. Our choice is whether our 
economic recovery rolls forward or falls backward. It is up to 
us whether we lay a new foundation for economic growth, 
competitiveness, and opportunity or whether we settle for a 
status quo that leaves America's next generation of 
entrepreneurs, our children and grandchildren, with clogged 
arteries of commerce. It is up to us whether we do big things 
or whether we do nothing. If we choose wisely, our legacy can 
be an economy on the move and a future that America is prepared 
to win.
    With that, Mr. Chairman, I will be happy to answer 
questions.
    [The prepared statement of Secretary LaHood follows:]

           Prepared Statement of Hon. Ray LaHood, Secretary, 
                   U.S. Department of Transportation
Introduction
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the Administration's Fiscal Year (FY) 2012 budget request for 
the U.S. Department of Transportation. The President is requesting $129 
billion for Transportation in FY 2012. This includes the first-year of 
a bold new six-year $556 billion reauthorization proposal that will 
transform the way we manage surface transportation for the future.
    America is at a transportation crossroads. To compete for the jobs 
and industries of the future, we must out-innovate and out-build the 
rest of the world. That is why President Obama called on the Nation to 
repair our existing roadways, bridges, railways, and runways and to 
build new transportation systems--including a national high-speed 
intercity rail network--which will safely and efficiently move people 
and goods. The Administration's Surface Transportation Reauthorization 
proposal is designed to accomplish precisely this, and is the 
centerpiece of the President's FY 2012 budget.
    It proposes four broad goals: (I) building for the future, (II) 
spurring innovation, (III) ensuring safety, and (IV) reforming 
government and exercising responsibility.
    The FY 2012 proposal includes a $50 billion ``Up-Front'' economic 
boost that is designed to jump-start job creation while laying the 
foundation for future prosperity. This initial funding would finance 
improvements to the Nation's highway, rail, transit, and aviation 
systems.
I. Building for the Future
    America's aging roads, bridges, and transit systems must be 
addressed. For too long we have put off the improvements needed to keep 
pace with today's transportation needs. By 2050, the United States will 
be home to 100 million additional people--the equivalent of another 
California, Texas, New York, and Florida. More than 80 percent of them 
will live in urban areas. Concerns about the need for livable 
communities will increase as communities tackle the need for 
transportation choices and access to transportation services. If we 
settle for the status quo, our next generation of entrepreneurs will 
find America's arteries of commerce impassably clogged and our families 
and neighbors will fight paralyzing congestion. So the Administration's 
proposal addresses this challenge in three ways:

        (1) Creating a National High-Speed Rail Network: First, the 
        proposal provides $53 billion over 6 years to continue 
        construction of a national high-speed rail network. It will 
        place high-speed rail on equal footing with other surface 
        transportation programs; include funding for both Amtrak and 
        new ``core express,'' ``regional,'' and ``emerging'' corridors; 
        and keep the country on track toward achieving a goal of 
        providing 80 percent of Americans with access to an intercity 
        passenger rail network, featuring high-speed rail within 25 
        years.

        (2) Rebuilding America's Roads and Bridges: Second, the 
        Administration's proposal will provide a 48 percent funding 
        increase--to $336 billion over 6 years for road and bridge 
        improvements and construction. A key element expands the 
        current National Highway System to include an additional 
        220,000 miles of critical arterials. It will also simplify the 
        highway program structure, accelerate project delivery to 
        realize the benefits of highway and bridge investments for the 
        public sooner, and underscore the importance of maintaining 
        existing highway infrastructure in good condition. These 
        investments and reforms will modernize our highway system while 
        creating much-needed jobs.

        (3) Investing in Accessible, Affordable Transit Options: Third, 
        the proposal will provide a 128 percent increase in funding--to 
        $119 billion over 6 years--for affordable, efficient, and 
        sustainable transit options. It will prioritize projects that 
        rebuild and rehabilitate existing transit systems, including an 
        important new transit safety program, and allow transit 
        authorities (in urbanized areas of 200,000 or more in 
        population) to temporarily use formula funds to cover operating 
        costs.
II. Spurring Innovation
    The Administration's Surface Transportation Authorization proposal 
acknowledges the important role that innovation and modern business 
tools play in putting our transportation dollars to work wisely. We can 
no longer afford to continue operating our systems the same way we did 
50 years ago, with outdated processes and financial tools that were 
made for yesterday's economy. Our proposal and the President's FY 2012 
request responds to this challenge in several ways.
    It establishes an Infrastructure Bank to finance projects of 
national or regional significance. By working with credit markets and 
private-sector investors, the Infrastructure Bank will leverage limited 
resources to achieve maximum return on Federal transportation dollars. 
The bank will initially receive $30 billion over 6 years, will reside 
within the U.S. Department of Transportation, and will be managed by an 
executive director with a board of officials drawn from other Federal 
agencies.
    Recognizing that competition often drives innovation, the 
Administration's proposal and the President's FY 2012 budget also 
includes a $32 billion competitive grant program called the 
Transportation Leadership Awards. This program's goal is to reward 
States and local governments that demonstrate transformational policy 
solutions. Examples include the use of innovative multimodal planning 
and funding methods, pricing and revenue options, land use guidelines, 
environmental stewardship measures, economic development strategies, 
innovation of project delivery, and deployment of technology--just to 
name a few possibilities.
    These new and innovative tools will help us to better meet the 
transportation needs of America's small towns and rural communities. 
Increased highway funding will expand access to jobs, education, and 
health care. Innovative policy solutions will ensure that people can 
more easily connect with regional and local transit options--and from 
one mode of transportation to another.
    At the same time, our proposal will bolster State and metropolitan 
planning; award funds to high performing communities; and empower the 
most capable communities and planning organizations to determine which 
projects deserve funding.
    Innovation must span beyond surface transportation. This is why the 
President's budget request also includes $3.4 billion for aviation in 
the $50 billion up-front investment. The budget requests $3.1 billion 
for airport improvements for runway construction and other airport 
projects such as Runway Safety Area improvement projects as well as 
noise mitigation projects. Modernizing our air traffic control systems 
is critical if we are to meet the needs of the future. The President's 
FY 2012 budget addresses this by providing $1.24 billion for the 
Federal Aviation Administration's (FAA) efforts to transition to the 
Next Generation (NextGen) of Air Traffic Control. This funding will 
help the FAA move from a ground-based radar surveillance system to a 
more accurate satellite-based surveillance system--the backbone of a 
broader effort to reduce delays for passengers and increase fuel 
efficiency for carriers.
III. Ensuring Safety
    Keeping travelers on our transportation systems safe is my top 
priority. That is why preventing roadway crashes continues to be a 
major focus at DOT. The Administration's Surface Transportation 
Reauthorization proposal will provide $330 million for the ongoing 
campaign against America's distracted driving epidemic. It will also 
commit $7 billion to promote seatbelt use, get drunk drivers off the 
road, and ensure that traffic fatality numbers continue falling from 
current historic lows. In addition, it almost doubles the investment in 
highway safety, providing $17.5 billion to Federal Highway 
Administration (FHWA) safety programs. The Department is also taking a 
fresh approach to interstate bus and truck safety. Compliance, Safety, 
Accountability (CSA) is a new initiative that will improve safety and 
use resources more efficiently. The Administration's Surface 
Transportation Reauthorization Proposal will dedicate $4.9 billion to 
the Federal Motor Carrier Safety Administration (FMCSA), and give the 
Department of Transportation new authority to set tougher safety 
performance goals for states.
    Transit safety is another important priority. Our proposal will, 
for the first time, entrust the Federal Transit Administration with the 
authority to oversee rail transit safety across America. In light of 
recent transit-related accidents, I believe this is critical to 
ensuring the oversight and accountability our transit riders deserve.
    Our safety focus must also include the transportation of hazardous 
materials and our network of pipelines. The Administration's Surface 
Transportation Reauthorization Proposal will fund the safety programs 
of the Pipelines and Hazardous Materials Safety Administration (PHMSA) 
and will enhance its authorities to close regulatory loopholes and 
improve its safety oversight. The President's FY 2012 budget requests 
$221 million for PHMSA to help ensure that families, communities, and 
the environment are unharmed by the transport of chemicals and fuels on 
which our economy relies.
IV. Reforming Government and Exercising Responsibility
    As we move forward together to plan for America's transportation 
needs, we must also keep in mind the responsibility we all share for 
using taxpayer dollars wisely. The Administration's Surface 
Transportation Reauthorization Proposal will cut waste, inefficiency, 
and bureaucracy so that projects can move forward quickly, while still 
protecting public safety and the environment.
    Our proposal consolidates and streamlines our current Highway and 
Transit Programs in a major way. The current system of over 55 separate 
highway programs will be folded into five new categories. Similarly, 
six transit programs are merged into one ``state of good repair'' 
program and one ``specialized transportation'' program. As a result of 
these changes, we expect to shorten project delivery and accelerate the 
deployment of new technologies.
    The Administration's Surface Transportation Reauthorization 
proposal also includes important reforms that change the way we manage 
our transportation spending. Consistent with the recommendations of the 
Fiscal Commission, for the first time, the Budget proposes to subject 
surface transportation spending to ``paygo'' provisions to make certain 
that spending does not exceed dedicated revenue. This approach is 
designed to ensure that our surface transportation program is paid for 
fully without increasing the deficit. The proposal will also expand the 
current Highway Trust Fund into a new Transportation Trust Fund with 
four accounts--one for highways, one for transit, one for high-speed 
passenger rail, and one for the National Infrastructure Bank.
Other Highlights
    The President's FY 2012 request includes some other key 
transportation priorities as well. These include the $18.7 billion in 
total funds requested for the FAA. FAA would receive $9.8 billion to 
fund the operation, maintenance, communications and logistical support 
of the air traffic control and air navigation systems. An additional 
$3.1 billion would support FAA's Facilities and Equipment program to 
fund FAA's capital projects. A total of $5.1 billion in FY 2012 would 
fund the Airport Improvement Program when funding from the $50 billion 
up-front investment is included.
    The President's request also includes $93 million for the U.S. 
Merchant Marine Academy (USMMA). $29 million of these funds will be 
used to support the next phase of the USMMA's Capital Asset Management 
program and for renovations to selected barracks and the mess hall. 
These improvements will help ensure that our cadets have the facilities 
they need to support their education.
Conclusion
    Thank you for the opportunity to appear before you to present the 
President's FY 2012 budget proposal for the Department of 
Transportation and our Surface Transportation Reauthorization proposal 
that will help transform transportation programs over the next six 
years in ways that will benefit all Americans for years to come. I look 
forward to working with the Congress to ensure the success of this 
request.
    I will be happy to respond to your questions.

    The Chairman. Thank you, Mr. Secretary.
    The administration has said that it is developing a 
comprehensive legislative proposal to support surface 
transportation reauthorization. And the President's budget 
request frequently references that proposal. However, weeks 
have gone by and we have yet to see anything. The Committee is 
developing reauthorization legislation, and such a legislative 
proposal would be helpful in understanding the administration's 
goals and intentions for reauthorization.
    Secretary LaHood. We are working with our colleagues at OMB 
through the process of a legislative proposal, and we hope to 
have one to you. It will be a reflection of the President's 
budget.
    The Chairman. Yes, we have that problem more than I would 
like. We have it on cybersecurity. You have got four committees 
involved with cybersecurity, and everybody has more or less 
figured out what to do. And Olympia Snowe, who is on this 
committee, is a huge part of that. But we have not gotten 
anything out of the White House, and that refrain increases 
just a bit here in the Senate.
    If we are to have an opportunity to pass this bill and to 
move it quickly, we are going to have to know where the money 
is going to come from. That is a big chunk which is unfunded. 
And as you referenced, the President has said what he is not 
for, which is raising the gas tax, but he has not referenced 
what he might be for. And at some point, we are going to have 
to come to grips with that.
    Secretary LaHood. Mr. Chairman, we are prepared to work 
with you and other Members of the Congress in a bicameral way 
to find the resources we need. We want to put a big vision out. 
That is what the President has done. This is a big, bold 
vision. It is the boldest vision that anybody can remember a 
President has ever put out in terms of transportation. We are 
prepared to work with you and others in the Congress to find 
the resources to make this vision a reality.
    The Chairman. And that does mean that he and his team will 
be proposing along with us.
    Secretary LaHood. We will work with you and anybody who 
wants to find resources to fund this big, bold vision.
    The Chairman. OK.
    Is everything on the table for funding, as far as the 
administration is concerned?
    Secretary LaHood. The President has said very clearly 
through me and others that he is not in favor of raising the 
gas tax when unemployment is at 8.9 percent and we still have a 
lousy economy. There are some people in this country that can 
little afford to buy a gallon of gasoline, let alone one that 
has been increased by an increase in the gas tax.
    The Chairman. I understand that and I agree with that, but 
then there is the question of what might be on the table. And 
if you cannot answer it, I will not press it. It is just that 
it is comforting, as you prepare for legislation, to know how 
you are going to pay for it.
    Senator Hutchison?
    Senator Hutchison. Mr. Secretary, I said in my opening 
statement that I am very concerned about what I consider to be 
the extraordinary increase in the operations account of the FAA 
at the expense of many of the capital accounts and 
infrastructure accounts. So could you explain why there is a 
$400 million increase over Fiscal Year 2010 in the operations 
accounts and if you are concerned about the diminishing of the 
capital accounts when we are trying to put forward NextGen 
which is probably the biggest thing that FAA will be doing in 
the next 10 years?
    Secretary LaHood. Let me just read this for the record, 
Senator, and then if you want more clarification. The Fiscal 
Year 2012 budget requests a .5 percent increase for operations. 
The Fiscal Year 2012 budget requests a 5 percent increase for 
facilities. The operations account would increase by 3 percent. 
The F&E account by 5.5 percent. My last point is the Fiscal 
Year 2012 budget requests $1.2 billion for next generation 
technology which has grown from $695 million in 2009, which is 
a 72 percent increase for next generation technology.
    Senator Hutchison. Well, my staff tells me that you are 
looking at the $50 billion up-front part of your bold vision, 
including a $3.1 billion increase for the airport improvement 
program and $250 million for NextGen applications, but that is 
from the general fund. And I am asking why the operations 
account is going up so much in your regular budget process, not 
the up-front vision.
    Secretary LaHood. Let me ask our budget----
    The Chairman. Yes. And I apologize because I failed to 
introduce Chris Bertram who is the Assistant Secretary for 
Budget.
    Secretary LaHood. Well, I apologize too because I forgot to 
mention it.
    Mr. Bertram. The operations account for FAA has been 
increasing on average 3 percent annually, and I think we have a 
similar concern. This year the increase is only a half a 
percent. It is probably the lowest request we have ever had. It 
is something we are cognizant of as we try to keep operations 
costs at a reasonable rate of growth.
    Senator Hutchison. Keep in mind that we had huge increases 
in the last 2 years. That is why so many of us are looking at 
2008 as a benchmark rather than the inflated spending that 
occurred in 2009, 2010 and 2011. So my question is why is there 
so much more in the operations and salary areas when you have 
had such increases in the last 2 years? Where is the effort to 
bring operations more in line with maybe 2008 levels, or just 
knowing that our fiscal house is not in order, why would we be 
increasing so much in these? It seems like really throughout 
the Department, we are increasing so much in operational costs.
    Mr. Bertram. On the FAA side, in terms of operations, we 
have one of the smallest increases we have ever had in a 
proposed budget. The cost drivers for operations are things 
like utilities, hiring additional inspectors that work on the 
safety side at FAA, as well as increased salary costs.
    Senator Hutchison. Well, I think we need to look at how 
much of that is some more inspectors and I think we need more 
of a justification.
    Mr. Bertram. We can break that down for you exactly where 
all of the increases are in the operations.
    [The information referred to follows:]

    The FAA Operations request for FY 2012 is $9,823 million. This is 
an increase of $309 million (3.3 percent) over the FY 2011 level of 
$9,514 million enacted in the full-year continuing resolution.
    An itemization of the $309 million increase is provided in the 
table below.

                         FAA Operations Request
      Comparison of FY 2012 President's Budget over FY 2011 Enacted
------------------------------------------------------------------------
                     Increase over FY
     Category          2011  ($ in                Description
                        Millions)
------------------------------------------------------------------------
Unavoidable                      90.1  <bullet> Annualization of prior
Adjustments                             year hiring (AVS safety
                                        inspectors and ATO NextGen
                                        staff)
                                       <bullet> Annualization of prior
                                        year pay raises and other pay
                                        adjustments
                                       <bullet> Non-pay inflation
------------------------------------------------------------------------
Uncontrollable                  181.0  <bullet> Implementation of air
Adjustments                             traffic controller collective
                                        bargaining agreement
                                       <bullet> Maintenance and support
                                        costs of new systems and
                                        equipment
                                       <bullet> Increased rent for
                                        existing office space and
                                        additional space for new safety
                                        inspectors
------------------------------------------------------------------------
Discretionary                    82.8  <bullet> Additional AVS
Increases                               inspectors and safety support
                                        staff
                                       <bullet> Additional NextGen
                                        staffing and environmental
                                        technologies
                                       <bullet> Commercial Space safety
                                        enhancements
                                       <bullet> Information Security
                                        enhancements
                                       <bullet> Hazardous Materials
                                        inspections and emergency
                                        operations enhancements
                                       <bullet> New service center
                                        buildings
------------------------------------------------------------------------
Cost Efficiencies               -44.9  <bullet> Flight Services contract
                                        savings
                                       <bullet> Real Property savings
                                       <bullet> Administrative
                                        efficiencies
------------------------------------------------------------------------
Total:                          309.0
------------------------------------------------------------------------


    Senator Hutchison. It is a smaller increase but you have 2 
years of big increases. We are just not getting, I think, the 
message that, yes, we have bold visions but we cannot just keep 
throwing money at operations and create these big visions or 
implement these big visions. So I will be anxious to hear more 
detail, Mr. Secretary. Thank you.
    The Chairman. Thank you, Senator Hutchison.
    Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you, Secretary LaHood, and Assistant Secretary 
Bertram.
    I wanted to ask you--Secretary LaHood, you and I had an 
opportunity to speak last week about the Memorial Bridge in 
Portsmouth. Would you still agree that is one of the worst 
bridges in America?
    Secretary LaHood. It is one of the worst bridges in 
America, Senator, and that is the reason that we provided the 
money that we provided so that you all could have a new bridge.
    Senator Ayotte. Certainly we appreciate the commitment, 
when you came to Portsmouth, to the project, and wanted to ask 
you about the actual approval process that New Hampshire and 
Maine are going through right now. There is a process that is 
undergoing a NEPA review, and the NEPA review itself is--as I 
understand it, we have already undertaken a NEPA review in the 
past that was sufficiently completed in 2008 and actually 
approved. Are you familiar with that?
    Secretary LaHood. What I know, Senator, is we believe that 
all the approvals will be completed by late summer/early fall.
    Senator Ayotte. As I understand it, the NEPA review that 
was already approved--the one that has been resubmitted is very 
substantially similar, very few differences between the two. 
Would you agree with me on that?
    Secretary LaHood. I will have to answer you for the record. 
I do not want to say that I know in intimate detail they are 
similar. I would rather answer you for the record.
    I know based on the conversation that you and I had, I went 
back and did the research on this project and was told by my 
staff that all the approvals will be completed by late summer/
early fall.
    On the specific question, I will give it to you for the 
record.
    Senator Ayotte. Well, I would appreciate that because I 
actually have a comparison in front of me between the NEPA 
review that was already done and the NEPA review that has been 
resubmitted, and there is only one minor difference between the 
two.
    [The information requested follows:]

    The 2008 National Environmental Policy Act (NEPA) evaluation was 
for rehabilitation of the historic Memorial Bridge. The scope of work 
has significantly changed from that proposed in 2008. The current 
project is to completely replace the bridge deck and widen the existing 
bridge piers to accommodate the wider cross section of the new 
superstructure. The bridge replacement project requires work in the 
river that was not necessary for the 2008 rehabilitation project, which 
did not include substructure or pier work. A separate NEPA evaluation 
and further coordination with appropriate natural resource agencies to 
address any Essential Fish Habitat/Endangered Species Act issues was 
required as a result of the extended scope of work. In addition, 
because the historic Memorial Bridge is to be completely removed, a 
more substantial mitigation package was determined necessary as part of 
the evaluation process under Section 106 of the National Historic 
Preservation Act and Section 4(f) of the Department of Transportation 
Act of 1966 evaluation process to help offset the increased impacts to 
historic resources resulting from the project.
    The required NEPA evaluation for the Memorial Bridge replacement 
project is now complete. The project was classified as a Categorical 
Exclusion on March 17.

    Senator Ayotte. And so given that, I am asking you why we 
cannot expedite the review process within your office to ensure 
that essentially, as I see this, very little difference in 
paperwork that we have already done and already gotten the full 
approvals for a project that, as you know, both states are 
deeply committed to. Can I have your commitment to expedite the 
review process within the Department of Transportation?
    Secretary LaHood. Absolutely, you can have my commitment.
    Senator Ayotte. Well, I very much appreciate that and look 
forward to working with you on it.
    Secretary LaHood. Just on this project, I want everybody to 
know that if the bill that passed the House is passed in the 
Senate, the last line of that bill says that any funds not 
obligated by February 11 will come back to the Treasury. So I 
want to just let everybody know that. These are all good 
projects. We would not have funded them if they would not have 
been good projects, and they all need this money. We just want 
to make sure everybody understands that.
    You have my commitment to do everything we can to expedite 
this project.
    Senator Ayotte. Well, I appreciate that, Mr. Secretary, and 
particularly since having reviewed this, which I know that you 
will do, the commitment from both of our states of already 
having gone through the paperwork process once, I would hate to 
see the bureaucracy stand in the way between the project when 
we have gone through already the proper review. So I appreciate 
your commitment to expediting the process within your agency 
because, you know, too often, unfortunately, the process 
itself, even though states have complied, can be very onerous, 
as you know.
    Secretary LaHood. Absolutely. You have my commitment.
    Senator Ayotte. Thank you.
    Secretary LaHood. Thank you.
    The Chairman. Thank you, Senator.
    We will have committee Chair and Ranking Member comments. 
This is all done by order of appearance. Therefore, Senator 
Lautenberg is next, to be followed by Senator Cantwell, then 
Senator Begich.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Mr. Secretary, as I said before, there is good work being 
done there and I appreciate your effort and your skill in 
weaving your way through the difficulties and making sure that 
our transportation agenda moves along.
    In Florida, Governor Rick Scott has said that he rejects 
$2.4 billion in Federal high-speed rail funds. The Northeast 
Corridor could start putting these funds to good use now to 
boost our economy and improve our existing high- speed rail 
service and create jobs. If the funds are returned to DOT, will 
the Northeast Corridor be a priority for receipt of these 
funds?
    Secretary LaHood. We have a request from just about every 
Member of Congress on both sides of the Capitol for these 
funds, Senator.
    Senator Lautenberg. For the Northeast Corridor?
    Secretary LaHood. Many of these Senators and 
Representatives are from the Northeast Corridor. We are working 
our way through the process of reallocation.
    Senator Lautenberg. The bills proposed by the House 
Republicans have slashed funds to replace the 100-year-old 
Portal Bridge in Jersey. This bridge carries more than 400 
trains and 180,000 people every day in one of the busiest 
passenger rail corridors in the country. What might be the 
effect on commuter mobility and the economy of the Northeast 
Corridor if the House Republicans have their way and the Portal 
Bridge does not get replaced?
    Secretary LaHood. We are committed to working with you and 
others for the replacement of this bridge. It is absolutely 
critical for safe travel. It is absolutely critical to the 
citizens of New Jersey and New York, and we remain committed to 
making sure this project moves forward.
    Senator Lautenberg. In 2009, President Obama signed into 
law the legislation I wrote to establish a Marine Highways 
grant program. It is to promote moving more freight by sea. And 
unfortunately, funding for the program was not included in the 
President's budget.
    Now, given the congestion on our highways, wear and tear on 
our roads, should we not be encouraging more freight to be 
moved by ship or barge at this point in time?
    Secretary LaHood. Last year, Senator, I convened one of the 
first meetings that have ever been convened of all the ports in 
the country to talk about the importance of ports, talk about 
this administration's commitment to every port in the country. 
We believe that the marine highway, which is a signature 
transportation program for our MARAD organization, could be 
funded through the Infrastructure Bank. We believe that is a 
pool of money out of which good marine highway projects, which 
we believe in, we think are important to relieve congestion, 
could be funded.
    Senator Lautenberg. While I commend the President's 
proposal for a robust investment in our transportation system, 
the budget does not specify how we are going to pay for these 
investments. At the same time, gas prices keep going up with 
proceeds going to the big oil companies and countries that do 
not like us rather than being reinvested in our infrastructure.
    What options are there to pay for the administration's 
proposal?
    Secretary LaHood. As I said to the chairman, we are 
committed to working with any Member of Congress who wants to 
be helpful in funding the big, bold vision that the President 
has for transportation and infrastructure.
    Senator Lautenberg. We need a big, bold bank account to do 
that, Mr. Secretary. Thank you very much.
    Secretary LaHood. Thank you.
    The Chairman. Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    Secretary LaHood, again a couple of different questions. 
One, the Columbia River crossing is a pretty big project for us 
connecting Vancouver, Washington to Portland, Oregon, and it is 
kind of one of a kind because it is a big multimodal project, 
including light rail. So we very much appreciate that it is in 
the President's budget proposal. So thank you very much for 
that. We have some questions, for the record on how the FTA 
match is calculated, if you can bear with us on that.
    But the larger question. With the Federal Highway 
Administration and the Federal Transit Administration involved 
potentially with the design of the bridge, maybe even the FAA 
involved, does it make sense to have someone within the 
Secretary's office assigned the role of project facilitator 
when it related to interdepartmental design issues?
    Secretary LaHood. We had a meeting with both governors when 
they were here for the Governors' meeting. I met with them on a 
Sunday afternoon. We made as strong a commitment as we could 
make to the Columbia Bridge crossing. It is one of the very 
unique infrastructure projects that really reflects big, bold 
intermodal programs. It includes highways, transit, and 
freight. It includes an opportunity for just about every mode 
of transportation to be included. It also includes a lot of 
different funding sources. That is what makes it creative and 
very unique. I told both governors that I would find someone 
within my office that would be on this particular project until 
we get it to construction.
    Senator Cantwell. And do you view them as a facilitator? My 
colleague was asking about EIA statements and when you think 
about every agency going through a different siloed approach to 
that, you could see how the project could drag on for a long 
time without those agencies coordinating. So you would view 
that as a facilitator across the groups.
    Secretary LaHood. Yes. We would have a person assigned to 
this project in order to make sure that all the bureaucratic 
paperwork is coordinated in a way that keeps it moving.
    Senator Cantwell. And completed in a timely fashion.
    Secretary LaHood. Correct.
    Senator Cantwell. OK, great. Thank you very much for that.
    On the Mexican trucking issue, the press release that the 
President's office issued said Mexico will reduce its 
retaliatory tariffs by 50 percent once the agreement is 
assigned and then talked about normalization. What does 
normalization mean to the Mexican government? I want to confirm 
that they are going to reduce their tariffs by 50 percent.
    Secretary LaHood. On the day the agreement is signed, 50 
percent of the tariffs will come off. On the day the first 
truck starts rolling across the border, the other 50 percent of 
the tariffs will be taken off.
    Senator Cantwell. And that is the understanding in the 
agreement.
    Secretary LaHood. That is the understanding of both 
countries, absolutely.
    Senator Cantwell. All right. Thank you, Mr. Secretary.
    Now, back to my opening statement about freight mobility. 
What are the Department's intentions in creating a dedicated 
program? And do you think that that strategy is in your office 
or led by the Highway Administration?
    Secretary LaHood. One of the things that we did over the 
last 2 years under the TIGER program, was give half of that 
money, $1.5 billion, to our freight rail friends. We want to 
enhance freight rail. Now, we are doing this in a selfish way 
because we need our friends in the freight business to help our 
ability to get our high-speed rail program going because there 
is not enough money to build infrastructure all over America. 
We want to use the great freight rail system that we have. We 
have reached agreements with a number of the freight companies 
in the States that have received high-speed rail money.
    We are very pleased with the cooperation that our friends 
in freight rail have given to us not only in accepting the 
money, fixing up infrastructure, and reaching agreements with 
the states. I think we have about as good a relationship with 
the class I freight rails as has ever been developed, not only 
because of the money they receive, but because of the 
commitment they are making to let us use their tracks. All of 
this has been coordinated through my office.
    Senator Cantwell. Great. So it sounds like you are ready to 
take the next step too maybe in coordinating on the physical 
transportation highway side of coordination--because if you are 
betting on that rail infrastructure, you have got to put the 
trucks in a cohesive framework to get to those rails and 
obviously in coordination with the ports.
    You know, obviously, the more congestion there is in any 
kind of area like Tacoma or Seattle or what have you, and if 
you do not have a plan like that, you are not only costing 
consumers in their own transportation, but you are costing the 
movement of goods and services. We are very, very competitive 
with Vancouver, British Columbia above us that is willing to 
take all of this business if we do not get this right.
    Secretary LaHood. So you are talking about truck.
    Senator Cantwell. In coordination of the system together.
    Secretary LaHood. Yes, we are committed to a coordinated 
system. We are working with the trucking industry on their 
ability to continue to be competitive. They were not 
particularly enamored with some of the proposals that were 
being floated around with respect to the Mexican truck, the 
cross-border, but we met with them and we worked those out. We 
think the trucking industry is vital.
    All of this has been coordinated through my office, and I 
have taken a personal interest in meeting with the trucking 
industry and the freight industry and the port industry to 
really make sure there is a lot of coordination going on.
    Senator Cantwell. Great. Well, we will have some 
suggestions too about that, and we would appreciate you looking 
at it.
    Thank you, Mr. Chairman.
    Secretary LaHood. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Mr. Secretary, for being here. I 
know our schedules have not met yet in the sense of getting to 
Alaska, but----
    Secretary LaHood. I hope to be there this summer.
    Senator Begich. OK.
    Secretary LaHood. We are coordinating with your office. We 
will do whatever you want us to do at whatever time, and if we 
need to be there a week or 10 days, we will stay as long as we 
are welcome.
    Senator Begich. I am almost ready to stop asking questions 
right now.
    [Laughter.]
    Senator Begich. But thank you for that. I know we have just 
had different scheduling, but I appreciate your commitment.
    Let me make sure I understood your comments on--I will use 
your words--the infrastructure bold vision. I mean, the reality 
is the vision is there but there is not a funding mechanism 
yet, and the President is not recommending one. You are waiting 
to work with us, but there is no funding for it. I just want to 
make sure we are on the same page.
    Secretary LaHood. Well, we know that the Highway Trust Fund 
is a way to fund part of what we want to do.
    Senator Begich. Sure.
    Secretary LaHood. Yes.
    Senator Begich. So we have just got to figure out the gap.
    Secretary LaHood. That is correct.
    Senator Begich. On the Infrastructure Bank, which I am 
intrigued about it--when I was a mayor, we talked a lot about 
the infrastructure bank. How will you treat rural states? 
Obviously, in Alaska, we are as rural as you get. Is it 
intended to have some recognition? It will be hard for us to 
compete against the large communities just because you will do 
a calculation, you will base it on population, benefit to 
people, so forth and so on, and rural States kind of lose out 
in that formula. Is there any consideration that you are going 
to take or any----
    Secretary LaHood. I think a state like Alaska can compete. 
Certainly your port can compete for infrastructure money, come 
directly to the Department and because of the port that you 
have----
    Senator Begich. The port in Anchorage.
    Secretary LaHood. Correct, yes. When they were here, I met 
with them. They have a very good vision. The Infrastructure 
Bank will fit that vision. So we will be encouraging them to 
utilize that.
    Senator Begich. Excellent.
    Secretary LaHood. Rural America will not be left out. When 
it comes to roads, we know that there are some places in rural 
America that need to enhance their roads, and there will be 
opportunities to do that in our plan, in our vision either 
through accessing our highway funds or accessing the 
Infrastructure Bank, through leveraging perhaps some loan 
programs that we might have. We are committed to rural America, 
including teaming up with transit programs. But in the case of 
a state like Alaska, we have to look for some innovative ways. 
We think the Infrastructure Bank is certainly one of those ways 
to do that, in addition to our regular transportation program.
    Senator Begich. Very good.
    This was not on my list, but you had made a comment. I want 
to make sure I understand. It is more of education to people 
who might be watching or out in the audience here.
    The February 11 item you mentioned--is that in the CR that 
is coming over from the House side?
    Secretary LaHood. That is in the bill that eliminated $60 
billion worth of programs.
    Senator Begich. That is in House bill 1 then.
    Secretary LaHood. Yes, sir, H.R. 1. That is the best way to 
put it. It is the last sentence of that bill.
    Senator Begich. Is it February 11 of this year?
    Secretary LaHood. Yes, sir.
    Senator Begich. So in other words, as soon as that passes, 
you are going to have to go claw back resources that 
communities have put in play already.
    Secretary LaHood. Any money that is not obligated before 
February 11 goes back to the Treasury.
    Senator Begich. So they may have it planned, but it is not 
yet complete.
    Secretary LaHood. They may be this close to it, but it does 
not make any difference.
    Senator Begich. So you have to go back. What happens if 
they had signed the documents to obligate February 25?
    Secretary LaHood. Gone. The money goes back to the 
Treasury.
    Senator Begich. So again, I want to make sure I am clear on 
this. Even if today a community, a state, a city signed a 
contract, obligates to fund--let us just say obligates because 
that may not engage----
    Secretary LaHood. That is right.``Obligate'' is the correct 
word.
    Senator Begich. Obligates the funds, puts it in the account 
ready to be put toward a project, they have bids going out or 
in some cases might have let the bid and it is after February 
11, you can come in and say I am sorry, you cannot spend that 
money.
    Secretary LaHood. That is correct.
    Senator Begich. Because the legislation that is pending in 
front of us today, H.R. 1, has a one-liner in their rider that 
says that.
    Secretary LaHood. That is correct.
    Senator Begich. I just want to make sure. I thought I heard 
that and I want to make sure it is clear so it is on the 
record. It is not me saying it. I agree with you on this, and I 
just want to make sure it is very clear. This will be one of 
the unique times that people will claw back money that might be 
obligated for a project that someone might be doing a summer 
construction project on.
    Secretary LaHood. I really appreciate your ability to get 
clarification on this, Senator.
    Senator Begich. As a member of the former metropolitan 
transportation planning effort in the City of Anchorage, 
obligations of monies are critical for our summer construction 
season. And what I am hearing is goodbye on some of those.
    Secretary LaHood. That is correct.
    Mr. Chairman, could I just continue on this point for one 
second?
    The Chairman. I am just not as smart as the Secretary and I 
really did not understand the point you were trying to make. So 
after he is finished saying what he wants to say, could you 
repeat it again?
    Senator Begich. I want to know how much money do you think 
will be--I took Amy Klobuchar's question here. How much money 
do you think is at risk for communities that have to claw back?
    Secretary LaHood. We do not know, Senator.
    Senator Begich. It is not going to be a few hundred 
million. It could be----
    Secretary LaHood. It is a lot of money, but more important 
than the money part, it is very important projects for 
communities all over America. People are counting on these 
projects to solve big problems. That is the important point.
    I talked to a Congressman today, a Member of the U.S. House 
today, who did not realize this provision was in that bill. He 
called me about his project.
    Senator Begich. I have some others I will just submit for 
the record because this took me off a little of my track, but I 
think that was an important point.
    Secretary LaHood. Yes, sir. Thank you.
    Senator Begich. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    And now Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much and thank you, 
Secretary LaHood for your leadership.
    Secretary LaHood. Thank you.
    Senator Klobuchar. I appreciated Senator Begich's 
questions, and I know I have got some people out in the lobby 
that I am going to go see that have a road that is very 
dangerous that the Department has helped fund through the 
years, but it is still not completed. And I know there are a 
number of projects out there, including 14 down in southern 
Minnesota that are very important. So I appreciate your 
leadership, including the Department of Transportation's 
leadership with our 35W bridge. For me, the number one 
obligation here is safety, and that includes bridges like the 
I-35W that went down and the ability to get funding when you 
have a situation like that happening.
    Along the lines of safety, Senator Gillibrand and I today 
reintroduced the Stand Up Act to talk about teen driving and 
how we can have better graduated standards across the country. 
Teen drivers are three times more likely to be in fatal 
accidents than adults. I know you know that.
    And I want to also thank you for your leadership on the 
subject of distracted driving. I know that there is some 
funding in this budget for taking on the distracted driving 
issue. We now have 28 percent of crashes that are caused by 
people talking or texting on their cell phones in this country. 
Do you want to talk about how you plan to use that funding?
    Secretary LaHood. What we would like to do, in part, is to 
make grants to states for enforcement. We believe that the 
reason that 85 percent of the people are buckling up today is 
because of Click It or Ticket, which was a very strong program 
through the Department of Transportation where we gave grants 
to communities for enforcement.
    The one thing that is lacking, even though now 30 states 
have passed good distracted driving laws, is that the police 
have a lot of other things to do in the kind of enforcement 
that we need. In the two states we gave grants to, Hartford and 
Syracuse, in the first 5 days between both communities, they 
wrote 5,000 tickets, the combined communities did, and 
distracted driving went down dramatically. So we intend to use 
that money for grants and also for education.
    Senator Klobuchar. Thank you.
    Second, last year I wrote you expressing my concerns about 
the pending lithium battery rule and how it pertains to medical 
devices, my concerns that the proposal will not sufficiently 
take into account the rigorous engineering, testing, and safety 
record of lithium batteries contained in medical devices. So I 
just wondered what is happening with that rule and if these----
    Secretary LaHood. I will put it on the record, but I will 
personally let you know. I do not know the up-to-date.
    [The information referred to follows:]

    The Administration is conducting an extensive review of the draft 
lithium batteries final rule due to numerous comments received from 
industry and foreign governments. Pipeline and Hazardous Materials 
Safety Administration (PHMSA) is fully aware of the concerns raised by 
the medical device and consumer electronics industries. These concerns, 
as well as issues raised by everyone commenting on the rulemaking, will 
be fully weighed and considered as PHMSA makes decisions concerning a 
final rule.

    Senator Klobuchar. OK, that is fine. We can put a question 
in writing and ask you.
    The Recreational Trails Program is very popular in our 
state. As you know, RTP is a Federal Highways Administration 
program that provides funds to the states to develop and 
maintain recreational trails for both nonmotorized and 
motorized uses, including cross country skiers, snowmobilers, 
and many uses. I agree with the proposals to consolidate 
highway programs, but I wanted to ask about to ask about your 
view of the RTP and what you see as its future?
    Secretary LaHood. I think all of these programs are good 
programs, and we have combined the programs so that we can make 
better use of the resources. This is a good program.
    Senator Klobuchar. Thank you.
    I know you met with Governor Dayton a week or so ago----
    Secretary LaHood. I did.
    Senator Klobuchar.--about some of our rail projects and 
wanted to thank you for your leadership on rail across the 
country and also the LRT line, the light rail line that 
connects St. Paul and Minneapolis, the central corridor. And I 
look forward to inviting you to Minnesota when the line opens 
in 2014.
    Secretary LaHood. I look forward to that.
    I also look forward to working with your governor. He is a 
big visionary when it comes to transportation. I have no doubt 
that Minnesota is going to be in the high-speed rail business 
because of your leadership, his leadership, and others in the 
State that want to really move on this.
    Senator Klobuchar. OK. Well, thank you very much, Secretary 
LaHood.
    Secretary LaHood. Thank you.
    The Chairman. Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Mr. Secretary, thank you. Always good to see you.
    Secretary LaHood. Thank you.
    Senator Pryor. I really want to thank you for always being 
available and always be responsive, and I appreciate that very 
much, as do many of the members of this committee, as far as I 
know, every member of the Committee. So thank you for that.
    Let me just ask a couple of sort of subissues on your cross 
border trucking program and proposal. The first would be we 
have had very serious corruption problems along the Mexican 
border with the Customs and Border Patrol. And I noticed that 
there is a recent news story about one of the FMCSA agents up 
in Canada having a corruption issue. So that is a very 
important element to me that we not allow our agents along our 
southern border to become corrupted. And as you know, there are 
lots of drugs down on that border, and there is basically 
organized crime. You know, these Mexican drug cartels are just 
really taking over down there.
    I would encourage you and your staff to look at some of the 
things we have helped Customs and Border Patrol do in terms of 
polygraphs and background checks, et cetera. So I would 
recommend that to you as a model.
    But the second thing is I hope that as you are doing this 
program, I hope that are using electronic, on-board recorders 
as part of the base of the program.
    Secretary LaHood. Electronic on Board Programs are part of 
the program. We need that kind of technology to make sure we 
know drivers' hours of service and make sure that they are 
complying with that.
    Senator Pryor. Yes. To me, that is a very simple solution 
because it helps so much with knowing all the----
    Secretary LaHood. Every truck will be required to have an 
on-board recorder.
    Senator Pryor. Right. Well, that is great news.
    Second, on the future interstate corridors, we have two in 
our state that are not completed, Interstate 49 and Interstate 
69. I know you met with a group from Arkansas, the stakeholders 
on 49.
    Secretary LaHood. Yes.
    Senator Pryor. And again, I appreciate you doing that.
    And you also helped with some TIGER Grant money there, not 
nearly as much as we wanted, but you did help with some TIGER 
Grant money there. And I appreciate that.
    But I am interested to know the level of this 
administration's commitment to those corridors. And the reason 
I am thinking this is so important is both of those--and there 
are probably others in the country, but both of those happen to 
be north-south corridors, and with the improvements on the 
Panama Canal, my sense is there will be a lot more need for 
north-south traffic in this country. How committed is this 
administration in funding those corridors and trying to get 
some of that work completed in the relatively near future?
    Secretary LaHood. Having met with you about this a couple 
of times, Senator, and also with constituents, this needs to be 
completed, and we are committed to working with your folks and 
your state and you to see that both are completed.
    Senator Pryor. Well, I appreciate that.
    In our state, high-speed rail is something that is 
certainly a policy that we ought to consider as a nation, but 
when I see the numbers there and I see that, for example, my 
state and many other States will not directly benefit from 
high-speed rail--possibly indirectly depending on how you look 
at it. But I wonder if we were to make that same commitment for 
these corridors in question, just how quickly we could get this 
done. So I hope that as you are going through this--I know you 
have a lot on your plate, but I hope you will consider 
allocating an equal or maybe even a greater amount to try to 
finish some of those future interstates.
    Secretary LaHood. Yes. If you look at the President's 
budget, Senator, we are committed big-time to roads and 
bridges, over $300 billion for roads and bridges. We are not 
trying to short-change anything. We get it. What we are good at 
are roads and bridges. We have proven that time and time again.
    Senator Pryor. Well, thank you for saying that.
    And the other thing--this may be my last question. But the 
other question I wanted to ask is this. NHTSA safety programs 
have been funded through the Highway Trust Fund and the vehicle 
safety program has been funded through general appropriations. 
As I understand your proposal in your budget, you are trying to 
change that this year. So in 2012, the Department is proposing 
funding the entire agency through the newly renamed 
Transportation Trust Fund.
    Secretary LaHood. Yes. I am going to let Chris talk about 
that.
    Senator Pryor. Why?
    Mr. Bertram. Senator, the idea for funding NHTSA from the 
trust fund on both the vehicle side, as well as the behavioral 
side, is the basic concept that the taxes paid in the trust 
fund are paid by motorists. They benefit from the safety 
program. So it is appropriate to fund that from the trust fund 
just like we do for motor carriers and trucking safety 
programs.
    Senator Pryor. Will you have enough revenue to do this? I 
mean, is this not the question with the trust fund, is how do 
we pay for all this?
    Mr. Bertram. The existing money going into the trust fund 
would first go for safety programs, both for motor carriers and 
for NHTSA.
    Senator Pryor. Mr. Chairman, in our office we have talked 
about infrastructure. We need infrastructure. But it is kind of 
hard to have a serious conversation about infrastructure 
without at least talking about how to pay for it. I know 
everybody has good intentions on this, but around here in 
Washington, people like to talk about investing in the future 
and investing in infrastructure, but until we come to terms 
with how to pay for it, it is kind of hard to have a very 
serious conversation about that.
    But thank you, Mr. Chairman. I appreciate it.
    The Chairman. We carry through at least. We are the same 
ways on wars.
    Senator Pryor. Yes, I understand.
    The Chairman. And now to the distinguished Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you.
    Welcome, Mr. Secretary.
    First of all, I would like to follow up on the question 
that was posed by the Senator from New Hampshire, Senator 
Ayotte, regarding the Memorial Bridge. I know what you 
referenced in terms of the TIGER funds and the concern that 
exist in the continuing resolution. I share that concern. I am 
hopeful that in the U.S. Senate we have the ability to offer a 
few amendments so we can address some of these issues rather 
than being denied that. I think there is a reversal of roles. 
The House is now offering amendments. The Senate is not allowed 
to in accordance with the traditions of the U.S. Senate. But in 
any event, that is another story.
    The point is here on the Memorial Bridge, obviously--and I 
really thank you and I know, speaking for both delegations 
here, saying that your support and in coming to Maine and to 
New Hampshire in order to present that $20 million check and 
describing the bridge as one of the worst in America. So 
obviously it has been the paperwork and the intensive 
regulatory requirements that have stalled this project in 
receiving the money.
    What can be done differently? I know that it has taken more 
than 6 months for the paperwork to be completed, even though 
you offered the paper check back in October. So what takes so 
long? Is there anything we can do to expedite that process?
    Secretary LaHood. I am going to look at these two documents 
to see if they are so similar that we can really short-circuit 
some time here in order to get the agreements that we need.
    Senator Snowe. You know, it is pretty much the same bridge 
in many respects. So I do not know that there is much that will 
deviate from the original model, as Senator Ayotte has 
indicated.
    Secretary LaHood. Right.
    Senator Snowe. I really do think it is important because it 
is more than 6 months, and so obviously we should have been 
able to move forward on that project, irrespective of what the 
issues are here now. I realize it complicates the matter in 
terms of the CR, but hopefully we will be able to address that 
issue eventually.
    Secretary LaHood. I am going to give you the same 
commitment that I gave to the Senator from New Hampshire. We 
are going to try and get this done as quickly as we can. We are 
going to look at the documents and we are going to see if we 
can cut some time off.
    Senator Snowe. Thank you. We appreciate that.
    Second, on the question of truck weights--and I know that 
the safety issue is obviously within our jurisdiction. All of 
this is within your jurisdiction. And as you well know, this 
has been a primary issue for our State. And there are other 
States, the State of Vermont, and there are States across the 
country that do not have the benefits of a truck weight waiver 
on the interstate. And this is what we are facing in Maine.
    I have discussed this with you before, and I am just 
wondering if you have any thoughts or ideas as to how best to 
tackle this issue of fairness and equity here so that every 
State has the benefit of opting for the truck weight limits. 
Now we are restricted to 80,000 pounds. We would like 100,000. 
There are more than twenty states across this country that have 
waivers.
    I have been fighting this issue for years, and my other 
colleague from Maine, Senator Collins, has as well. But I know 
when I first came here, we were fighting this issue, and 
everybody said it is a safety issue. Well, it sure is a safety 
issue but not in the way they regard it. I mean, all of these 
trucks are going right through some very small towns. We have 
had accidents. It has been a very compelling question. And so 
what we are saying, we would rather have these trucks on the 
interstate than going through some very small towns and two-
lane highways through these small towns. It is raising some 
very serious issues when it comes to safety-related questions.
    So I do not understand how so many other states can have 
waivers and the others are denied even the ability to opt into 
having a waiver program, especially now with high gas prices, 
diesel fuel prices, safety issues. I mean, across the spectrum 
it offers numerous benefits.
    So is there anything you could recommend as an approach? I 
was thinking maybe giving you a waiver. You know, you have the 
ability to issue waivers to those States who currently do not 
have the benefit of waivers, I think most of which have 
occurred through the legislative process. But somehow we have 
to streamline this across the country so that every State has 
the benefit of opting into the waiver program.
    Secretary LaHood. I think given the fact that we deal in 
safety every day, that we have very good safety experts, that 
we have a great team of people, that we can see the view of 
this from 30,000 feet so to speak. I think giving the Secretary 
the opportunity for looking at specific--this is a very 
specific problem for your state. Giving the Secretary the 
opportunity to look at it from the big view, from the safety 
view, from a different safety optic than maybe another state 
safety optic is not a bad idea. You could certainly do that in 
a transportation bill.
    Senator Snowe. Well, I am certainly looking at that 
approach. That way you have a level of fairness for every 
state.
    Secretary LaHood. That is correct.
    Senator Snowe. I think so because I have given tapes to 
show what it is like to see these trucks rumbling through these 
small towns.
    Secretary LaHood. Right.
    Senator Snowe. I mean, it is a serious question. And then, 
of course, there are economic benefits as well for the trucking 
companies and now with the costs of energy.
    So I would hope that we could work on that issue, and 
perhaps that is one way of doing it.
    Secretary LaHood. Yes.
    Senator Snowe. You can do it on a case-by-case basis. At 
least every state would have the opportunity for it.
    Secretary LaHood. Right.
    Senator Snowe. Thank you.
    Secretary LaHood. Thank you.
    The Chairman. Thank you, Senator Snowe.
    Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    Mr. Secretary, I just wanted to follow up with the House 
bill and the language in it to clarify with you that the 
funding for the Memorial Bridge is actually TIGER II 
competitive grant funding. And the specific language in the 
House continuing resolution actually applies to stimulus or 
ARRA funds. So right now where we stand with the Memorial 
Bridge is if you look through this paperwork process and were 
able to obligate the funds before March 18, that project could 
still go forward regardless of what happens with the House 
bill.
    So I just wanted to clarify that with you and I really 
appreciate not only your coming to New Hampshire, as the 
Senator from Maine mentioned, and to Maine, but also your 
commitment to review the paperwork. And I can certainly provide 
you--I know you will have access to the paperwork, but we did a 
side-by-side comparison as well.
    Secretary LaHood. Great. Yes, I would like to see that.
    Senator Ayotte. Well, thank you very much for your 
testimony today. I appreciate it.
    Secretary LaHood. Thank you.
    The Chairman. Mr. Secretary, I think that that is probably 
it, if that is all right with you, unless you would like to 
stay another hour or so.
    [Laughter.]
    Secretary LaHood. Mr. Chairman, I would always like to 
spend another hour with you.
    The Chairman. One of the things that is interesting about 
these hearings is that there is a certain amount of national 
policy which comes into it, but a lot of it does come back to 
local issues. And that is called human nature. That is called 
representing your state. There is no law or ethical value you 
can possibly promulgate that would change that. But I can 
understand from time to time it would frustrating to you 
because you are dealing with extremely large issues--trucking, 
highways, FAA. But it is frustrating because you do deal in 
policy. When you go back to your office, you are dealing in 
policy, and you see people. They come in and they probably have 
bridges and other types of things they care about.
    But you seem to have a very adaptable balance between the 
two. I mean, you are easy both in responding to people's needs 
without seeming frustrated or, you know, I got things to do. 
And yet, you are obviously very comfortable in the policy part. 
So it is a very special honor to have you here.
    Secretary LaHood. Thank you.
    The Chairman. It is a big deal because we really do want to 
get a reauthorization done. I think we can.
    Secretary LaHood. We appreciate that.
    The Chairman. And we will do our best.
    Secretary LaHood. Thank you.
    The Chairman. Thank you, sir.
    Secretary LaHood. Thank you, Mr. Chairman.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Hon. Ray LaHood
    Question 1. I commend the National Highway Traffic and Safety 
Administration (``NHTSA'') in partnership with the Environmental 
Protection Agency (``EPA'') in their historic effort to reduce 
greenhouse gas (``GHG'') emissions from mobile sources and reduce oil 
consumption through improvements in fuel economy. I recognize the vast 
challenge before the two Agencies and applaud the development of a 
workable solution that protects the environment while providing 
flexibilities important to maintaining a viable automotive industry. 
While much public attention has been placed on emerging technologies 
such as electrified vehicles, some advocates suggest that technologies 
to improve the fuel efficiency of gasoline and diesel engines have 
great potential in the short term. What technologies do you believe 
will be helpful to reducing GHG emissions and our Nation's dependence 
on foreign oil?
    Answer. NHTSA is working with EPA to propose new fuel economy and 
greenhouse gas standards for passenger cars and trucks built in model 
years (MYs) 2017 through 2025. The coordinated standards will be a key 
part of meeting the Administration's energy and climate security goals, 
which call for the increased domestic production and use of existing, 
advanced, and emerging technologies to strengthen the auto industry and 
enhance job creation in the United States. The standards are intended 
to save consumers money by cutting down on fuel costs. They will also 
help to improve our Nation's energy security by reducing dependence on 
petroleum, and to protect the environment by reducing greenhouse gas 
pollution that leads to climate change.
    NHTSA is required by statute to set fuel economy standards at the 
``maximum feasible'' level, based on considerations of technological 
feasibility, economic practicability, the effect of other motor vehicle 
standards of the Government on fuel economy, the need of the United 
States to conserve energy, and other factors. As part of determining 
what fuel economy standards would be the maximum feasible for the MY 
2017-2025 timeframe, NHTSA is assessing a broad array of fuel economy 
improving technologies that are expected to be available then. This 
includes existing, advanced and emerging technologies.
    For conventional gasoline engines, some of the technologies we will 
examine for application to future vehicles include gasoline direct 
injection engines, cylinder deactivation, valve timing and/or lift 
control, engine turbo charging and downsizing, engine friction 
reduction, six and eight speed automatic and dual clutch transmissions, 
start-stop micro-hybrid technology, and improved accessory efficiency. 
Most of these technologies are expected to be available in the MY 2012-
2016 timeframe, as mentioned in the recent NHTSA and EPA final rule, 
but they may not all be widely applied during that timeframe. NHTSA and 
EPA therefore expect that manufacturers could expand the application of 
these technologies to the majority of vehicle models in subsequent 
years. Other gasoline engine technologies are currently under 
development by manufacturers and are expected to be used on a more 
limited basis in MYs 2012-2016, but should see wider application after 
MY 2016. These include gasoline direct injection engines with cooled 
exhaust gas recirculation, and with a larger degree of engine 
downsizing and high level of turbo charging.
    Diesel engines have inherently higher efficiency than gasoline 
engines because of lower pumping losses and higher thermal efficiency. 
We expect that diesel engine efficiency will also be improved in the 
future.
    Fuel efficiency should also be improved through non-engine/
drivetrain technologies like better tire rolling resistance, vehicle 
aerodynamic drag reductions, brake drag reductions, vehicle mass 
reduction and the expanded use of electric power steering.
    Finally, in the MY 2017-2025 time-frame we expect to see the 
expanded production of Hybrid Electric Vehicles, Plug-in Hybrid 
Electric Vehicles, Electric Vehicles and the advent of commercial Fuel 
Cell Vehicles.

    Question 2. Secretary LaHood, you have been a leader on the issue 
of distracted driving. The President's budget request signals a 
continuing interest in reducing distracted driving through the creation 
of a Distracted Driving Prevention Grant Program. You have expressed 
concern in the press about the increasing presence of technology that 
is built into vehicles and allows people to conduct electronic 
communications while they are driving. What steps is the Department 
taking to determine the safety of these systems? Is the Department also 
looking at the emerging technologies designed to prevent distraction in 
vehicles? What efforts are being made to encourage the integration and 
adoption of technologies designed to prevent distracted driving by 
drivers, fleet owners, manufacturers and wireless carriers?
    Answer. The Department of Transportation remains concerned about 
the safety consequences of distracted driving, including the increasing 
presence of electronic communications systems built into vehicles. To 
address this, the Department is developing Federal guidelines that will 
encourage in-vehicle electronic devices with driver-vehicle interfaces 
(DVIs) that require minimal driver effort. The National Highway Traffic 
Safety Administration (NHTSA) will complete the guidelines for visual-
manual distraction in 2011. Future guidelines will cover portable 
devices and voice interface systems with completion scheduled for 2013 
and 2014, respectively. In addition, research is being conducted to 
observe how drivers interact with in-vehicle electronic systems during 
normal driving conditions (naturalistic driving studies) to better 
understand the safety impact of new technologies on driving.
    For emerging safety technologies, NHTSA is continuing its research 
into crash avoidance safety systems with a focus on optimizing DVI so 
that the driver is alerted in the most effective manner possible that 
they are distracted. NHTSA is also researching other newer technologies 
and concepts, including advanced driver/vehicle monitoring concepts 
that would sense driver impairment caused by distraction.
    The agency's activities are outlined in NHTSA's Distraction Program 
Overview, which can be found at www.distraction.gov.
    In terms of encouraging technology integration and adoption, the 
Department has held two Distracted Driving Summits to bring leading 
academic researchers, technology innovators, automobile manufacturers, 
wireless carriers, State and Federal representatives, and many other 
interested stakeholders together to discuss and share solutions to the 
problem of distracted driving. As a result of these meetings, the 
Federal Communications Commission (FCC) established a technology 
clearinghouse. The FCC's Distracted Driving Information Clearinghouse 
provides links to information about firms and organizations providing 
technology approaches intended to reduce the dangers of distracted 
driving. One innovative new technology discussed at the summits is cell 
phone filter/blocker applications, which can be installed on cellular 
phones to restrict or block features such as text and data 
transmissions. Wireless carriers have now integrated these types of 
applications as an option for customers.

    Question 3. The President's budget proposes $53 billion in high-
speed rail funding over 6 years, a massive investment in our rail 
infrastructure. However, Governors from Wisconsin, Ohio, and Florida 
are turning back funds that you've awarded for their passenger rail 
projects. The House has also made clear that it wants to cut funding 
for these programs entirely. How are you going to convince the states 
that more Federal investment in passenger rail projects is necessary?
    Answer. States have responded to the High-Speed Intercity Passenger 
Rail (HSIPR) program with intense competition for Federal funds. 
Although 3 Governors have returned funds, 32 have enthusiastically 
accepted HSIPR resources and are interested in being a part of this 
program. In just 20 months, the Federal Railroad Administration 
received nearly 500 applications from 39 states, the District of 
Columbia, and Amtrak, requesting more than $75 billion for high-speed 
and intercity passenger rail projects. This interest has far exceeded 
the $10.1 billion available under the Recovery Act and FY 2010 annual 
appropriations.
    Intercity passenger rail provides consumers with an affordable 
travel alternative that is increasingly more attractive given the time 
consuming travel to and from airports, the time consuming check in and 
security procedures for air travel, and the time wasted on congestion-
choked highways. Based on the Harris Poll survey conducted in January 
2011, 66 percent of Americans indicate they are somewhat or very likely 
to consider using high speed rail service when traveling for pleasure.
    High-speed passenger rail can also create a new economic base with 
highly skilled, good-paying jobs. The Northeast Corridor, for instance, 
carries 65 percent of the air-rail traffic between Washington, D.C., 
and New York City, and is a vital transportation mode in the region's 
$2.4 trillion economy.

    Question 4. You propose establishing a National Infrastructure Bank 
that would partner with private investors to invest in major 
transportation projects--thereby getting more bang with the Federal 
buck--and that funds from the Bank would be competitively awarded to 
projects based on which project produces the highest return to the 
American taxpayer. This sounds interesting to me, but I'm unclear how 
this would actually work.
    West Virginia works extremely hard to attract private investment, 
but has a rural infrastructure and geography that makes transportation 
construction enormously expensive. How did DOT determine that demand 
from the private sector to partner on these types of projects exists? 
How do you plan to determine the return to the taxpayer? What are some 
examples of projects that would best fit this model?
    Answer. The National Infrastructure Bank (I-Bank) will encourage 
private, State, and local entities to invest capital in projects that 
are most critical to our economic progress. The I-Bank will base its 
investment decisions on clear analytical measures of value-for-cost and 
level of non-Federal co-investment, competing projects against each 
other to determine which will project the greatest return for American 
taxpayers.
    The demand for this type infrastructure investment is evidenced by 
the recent level of interest in the Transportation Infrastructure 
Finance and Innovation Act (TIFIA) program. The TIFIA program provides 
up to 33 percent Federal credit assistance in the form of direct loans, 
loan guarantees, and standby lines of credit to finance surface 
transportation projects of national and regional significance. In FY 
2010, 39 projects with a total cost of $40.9 billion were seeking TIFIA 
financial assistance of $12.5 billion. In FY 2011, 34 projects with a 
total cost of $48.2 billion were seeking TIFIA financial assistance of 
$14.0 billion. The letters of interest for the TIFIA program have 
requested financial assistance for a wide variety of transportation 
infrastructure projects and we anticipate these same types of projects 
will compete for I-Bank funding.

    Question 5. We've seen some alarming pipeline accidents in the past 
several months. Just last month, a gas pipeline explosion in 
Pennsylvania left five people dead. The President's budget calls for a 
$15 million increase in pipeline safety funding. Is this amount 
sufficient to address these horrific accidents? What specifically would 
this proposed increase allow the Department to do to increase safety? 
Also, DOT's regulatory model over pipeline safety relies heavily on the 
states and industry to police themselves. Is this model working? Do we 
need a more centralized approach to providing the regulatory oversight 
that is needed in this industry?
    Answer. Yes. PHMSA believes the President's budget for pipeline 
safety is sufficient to address these accidents.
    As recent pipeline failures have shown, the Department needs 
stronger authority in several key areas of its pipeline safety program 
including: increasing oversight of both the operation and the 
construction of energy pipeline operators, by adding needed new 
Inspection and Enforcement personnel (the FY2012 Budget proposes an 
additional 10 personnel), and by allowing PHMSA to maintain the rigor 
of its special permit review and approval process by bringing in 
critically needed national-level technical support. PHMSA believes the 
current regulatory model is appropriate for pipeline safety. PHMSA and 
its State partners have provided regulatory oversight of the pipeline 
industry for 40 years. Since PHMSA's data collection process was 
authorized around 1986, pipeline incidents resulting in serious injury 
or death are down 45 percent. PHMSA's states pipeline safety program is 
one of PHMSA's strongest assets in helping to strengthen the safety of 
the pipeline infrastructure. PHMSA works with its state partners to 
ensure consistent and effective oversight by annually coordinating 
inspection programs and areas of inspection and enforcement focus; 
conducting joint training for all Federal and state inspectors; and 
participating in monthly coordination calls with the leadership of the 
National Association of Pipeline Safety Representatives (NAPSR). PHMSA 
also carries out annual onsite evaluations of state programs in which 
it reviews state procedures and records and observes field inspection 
activities to ensure they are aligned with Federal program objectives.

    Question 6. In regard to the Aviation Trust Fund, fuel prices 
continue to go up and a downturn in traffic would have major 
ramifications for its health. How do we protect the Trust Fund moving 
forward? Has the Administration been considering any reforms to make 
sure it is stable into the future?
    Answer. FAA continually monitors the health of the Airport and 
Airway Trust Fund including projections of revenue, outlays, and cash 
balances to avoid over-committing resources from the Trust Fund. 
Section 48114 of Title 49 provides an additional protection to the 
Trust fund by guaranteeing that annual appropriations from the Trust 
Fund cannot exceed the annual revenue projections. The 2012 Budget 
forecasts robust cash balances in the Trust Fund in the out years 
ranging from $7.6 billion in 2012 to $11.8 billion in 2016.
                                 ______
                                 
    Response To Written Question Submitted by Hon. Amy Klobuchar to 
                            Hon. Ray LaHood
    Question. Mr. Secretary, Last year I wrote you expressing my 
concerns with the pending lithium battery final rule and how it 
pertains to medical devices. Although I am a strong advocate for the 
safe shipment of batteries, I remain concerned the proposal will not 
sufficiently take into account the rigorous engineering, testing and 
safety record of lithium batteries contained in medical devices. These 
FDA approved products are designed to be implanted in the human body 
for many years, and do not pose safety threats. I am also concerned the 
proposal would cause unnecessary delays in the distribution system and 
severely impact patient access to these critical life-saving 
technologies. The consumer electronics industry is also concerned about 
the proposed final rule because the nature of their supply chains and 
their ability to serve consumers in the on-line, 24-hour, next-day-
shipping market place. Will the final rule properly address these 
concerns?
    Answer. The Administration is conducting an extensive review of the 
draft final rule due to numerous comments received from industry and 
foreign governments. PHMSA is fully aware of the concerns raised by the 
medical device and consumer electronics industries. These concerns, as 
well as issues raised by everyone commenting on the rulemaking, will be 
fully weighed and considered as PHMSA makes decisions concerning a 
final rule.
                                 ______
                                 
   Response To Written Questions Submitted by Hon. Maria Cantwell to 
                            Hon. Ray LaHood
    Question 1. Secretary LaHood, last week the President announced 
that a ``clear path'' to resolving the cross border trucking issue had 
been reached with the Mexican government. I, of course, was happy to 
hear that a way forward had been found to eliminate the tariffs that 
have been disproportionally harming my State. What steps have to be 
taken by the U.S. and Mexican governments before the agreement can be 
signed?
    Answer. On April 13, 2011, the Federal Motor Carrier Safety 
Administration (FMCSA) announced its proposed pilot program in the 
Federal Register. The U.S. Department of Transportation (DOT) signed a 
memorandum of understanding with the Government of Mexico on July 6. On 
July 8, 2011, a response to comments notice was also published in the 
Federal Register. The Government of Mexico decreased the tariffs by 
half. The remaining tariffs will be removed when the first Mexico-
domiciled carrier is granted provisional long-haul authority under the 
pilot program.

    Question 1a. When does the Administration expect the agreement to 
be signed?
    Answer. The U.S. DOT signed a memorandum of understanding with the 
Government of Mexico on July 6, 2011.

    Question 1b. What steps have to be taken by the United States and 
Mexican governments before the pilot project becomes operational?
    Answer. Legally, the DOT Inspector General must complete a review 
of FMCSA's plans for the pilot and publish a report. The Agency must 
then respond to any findings of that report in a Report to Congress 
before the Agency can authorize a Mexican carrier to operate beyond the 
commercial zones under this program.
    Operationally, the United States must procure and install 
electronic monitoring devices on participating Mexican trucks. In 
addition, the applicants must be vetted by the Department of Homeland 
Security and the Department of Justice.
    Once the applicant successfully completes the vetting process, 
FMCSA will have to complete a Pre-Authorization Safety Audit (PASA) to 
confirm the participating drivers, vehicles and carriers will operate 
in a safe manner in the United States beyond the commercial zones on 
the U.S.-Mexico border. The PASA process includes publishing 
information in the Federal Register to provide the public an 
opportunity to comment on the safety of carriers that have successfully 
completed their PASA reviews.
    Concurrent with completion of these actions, FMCSA will provide 
training to enforcement staff, complete necessary information 
technology system changes, and maintain up to date information about 
the program on its website.

    Question 1c. When does the Administration expect the pilot to 
become operational?
    Answer. DOT expects to issue provisional authority to the first 
approved applicant in September 2011.

    Question 2. Secretary LaHood, as you know, the Columbia River 
Crossing (CRC) project connecting Vancouver, Washington and Portland, 
Oregon is a first of its kind multi-modal mega-project. It is not only 
a replacement for the I-5 Bridge; it is a highly innovative project 
that incorporates light rail into the structure. It enjoys strong local 
support.
    I appreciate your commitment to assign an individual from your 
office to ``Shepherd'' the project through the DOT bureaucracy until 
construction. More broadly, what institutional mechanisms, if any, do 
you believe should be put in place to ensure that the Department 
systematically approaches multi-modal mega-project such as the CRC in a 
coordinated and timely manner?
    Answer. DOT Operating Administrations have worked successfully 
across modes on multi-modal projects like the CRC. One notable example 
of this is FHWA's and FTA's work on the T-REX project in Denver. In 
this and other instances, the DOT Operating Administrations have proven 
very flexible in the funding and oversight of such innovative projects.
    The Department's approach to the CRC, with an FHWA full-time 
employee located in Vancouver solely dedicated to this project, is a 
model for demonstrating how complex multi-modal projects can be 
approached and coordinated among different modal agencies in an 
efficient and timely manner. FHWA staff is in regular contact with FTA 
personnel. In addition there is regular discussion between personnel in 
USDOT Headquarters and the FHWA onsite person to ensure there is not a 
duplication of effort between the FTA and FHWA requirements to obligate 
funds. USDOT is committed to managing the CRC project to ensure that 
coordination issues between agencies will not affect the obligation of 
funds for this very complicated project.

    Question 2a. Public Law 111-117 Section 173 states ``Hereafter, for 
interstate multi-modal projects which are in Interstate highway 
corridors, the Secretary shall base the rating under section 5309(d) of 
title 49, United States Code, of the non-New Starts share of the public 
transportation element of the project on the percentage of non-New 
Starts funds in the unified finance plan for the multi-modal project: 
Provided, That the Secretary shall base the accounting of local 
matching funds on the total amount of all local funds incorporated in 
the unified finance plan for the multi-modal project for the purposes 
of funding under chapter 53 of title 49, United States Code and title 
23, United States Code: Provided further, That the Secretary shall 
evaluate the justification for the project under section 5309(d) of 
title 49, United States Code, including cost effectiveness, on the 
public transportation costs and public transportation benefits.'' My 
understanding is that in spite of the above language, FTA is still 
pushing for the project sponsors to provide a 20 percent local match on 
the transit component for the CRC--an example of an interstate multi-
modal project described in Section 173. Why?
    Answer. Every grant that FTA awards for a capital transit project 
funded under 49 U.S.C. Section 5309 must include a local share of at 
least twenty percent of the total project costs. See 49 U.S.C.  
5309(h)(1). The provision under Public Law 111-117 does not excuse 
compliance with this requirement. Rather, Section 173 of Public Law 
111-117 gives interstate multi-modal project sponsors the ability to 
count their expenditures on highway facilities and equipment toward the 
requirement for a twenty percent local share on the transit project 
that will be the subject to the local cost share provisions in 49 
U.S.C.  5309(h)(1). At this point, we have every reason to believe the 
CRC project sponsors will be able to meet the requirement for a twenty 
percent local share under the provisions of Section 173 of Public Law 
111-117.

    Question 3. Secretary LaHood, one of the reasons the CRC project is 
so important to the region and the Nation is that it will improve 
freight mobility within the I-5 corridor.
     A 2007 GAO report cited the three key barriers inhibiting 
intermodal transportation as being: (1) limited Federal funding 
targeted to such projects, in part due to statutory requirements; (2) 
limited collaboration among the many entities and jurisdictions 
involved; and (3) limited ability to evaluate the benefits of such 
projects. Almost 4 years later, what, if anything, has changed 
fundamentally? Is the Department's freight strategy coordinated by your 
office or is it led by the FHWA? What are the Department intentions 
with respect to creating a dedicated freight mobility program?
    Answer. The Administration recognizes the critical role freight 
rail plays in our Nation's economy, and that is why the President 
proposed, in the FY 2012 Budget, a major increase in funding for 
freight projects. The Budget proposed $5 billion in 2012 and $30 
billion over 6 years, for the National Infrastructure Bank. These funds 
can be leveraged across all modes--ports, railroads, and highways--in 
ways that increase the Nation's economic competitiveness. The President 
also proposed creating a new $16.75-billion Highway Infrastructure 
Performance Program, which will focus on improving the state of good 
repair of the National Highway System--our key highway network for 
freight transportation.
    Limited collaboration among the many entities and jurisdictions 
involved in planning of transportation improvements has also interfered 
with solving freight problems. This has been amplified by restricted 
funding and in turn, little incentive to do work together. We believe 
that making freight infrastructure funding available through a 
competitive program (like the National Infrastructure Bank), where all 
modes of freight transportation are eligible, will create incentives 
for these entities to collaborate on finding the best solutions to our 
freight transportation problems.
    Systematic evaluation of the benefits and costs of transportation 
projects has generally not been required in the past. As a result, the 
methods for carrying out these analyses were not always well-developed. 
We have required analyses of benefits and costs in our two rounds of 
TIGER Grant awards, and the ability to measure benefits is improving. 
We plan to do further research into these issues to enhance our 
abilities to assess the full range of benefits that freight 
transportation improvements can provide.
    The Administration's surface reauthorization proposal included the 
establishment of an Office of Freight Policy in the Office of the 
Secretary of Transportation that would coordinate freight policy across 
the various modal administrations. This Office would develop a National 
Freight Transportation Strategic Plan and provide guidance to the modal 
administrations and to the National Infrastructure Bank on where 
investments in freight transportation infrastructure are most needed. 
The proposed National Infrastructure Bank would take the lead on 
investing Federal discretionary funds in freight transportation 
projects, including both modal and intermodal projects that will best 
contribute to achieving our strategic goals.

    Question 4. Secretary LaHood, ridership continues to increase on 
the Amtrak Cascades high-speed corridor. As you know, the route 
connects Eugene, Portland, Seattle, and Vancouver. What is the status 
of the discussions between Washington State Department of 
Transportation (WSDOT) and the Federal Rail Administration (FRA) for 
the roughly $161 million in additional funds (returned by Wisconsin) to 
fund high-speed rail projects from Seattle north to the Canadian 
border?
    Answer. WSDOT has been approved to receive $161 million of funds 
returned by Wisconsin. FRA and WSDOT are in the process of finalizing 
the amendment to add the redistributed funds to support the high-speed 
rail projects from Seattle north to the Canadian border.

    Question 4a. What are the key unresolved issues between WSDOT and 
the FRA?
    Answer. There are no unresolved issues.

    Question 4b. Do you see an urgency to complete these negotiations 
soon?
    Answer. Yes. To be able to take a full advantage of the 
construction season and to get the funds obligated and according to the 
agreement and work schedule between the WSDOT and FRA this project is a 
priority.
    On Feb. 28, 2011, FRA obligated $590 million to WSDOT to fund 
several infrastructure improvements along the Pacific Northwest Rail 
Corridor.

    Question 5. Without getting bogged down in specific numbers, does 
the President's FY 12 budget allow for the implementation of Next 
Generation Air Transportation System (NextGen) to stay on track?
    Answer. The President's FY 2012 budget for NextGen is sufficient to 
continue the transformation of our Nation's air traffic control system 
and deliver on our near-term NextGen commitments. The budget allows the 
FAA to continue to focus on the top priorities for the development and 
implementation of NextGen, to include making progress toward industry 
priorities reflected in the RTCA Task Force recommendations.

    Question 5a. One of the barriers to the rapid adoption of NextGen 
for airlines is that their equipage costs are upfront but their 
benefits will not be realized for several years out. There have been 
discussions on the Hill in recent years about providing some form of 
financial incentives to convince airlines to equip their planes sooner 
rather than later. Does the Department have a view on who should pay 
for NextGen equipment costs and how they should be paid for?
    Answer. NextGen will deliver significant benefits to the aviation 
community. However, as has been widely acknowledged, achieving the full 
capability of NextGen benefits requires significant operator commitment 
and financial investment. Ensuring that a significant portion of the 
aircraft fleet is appropriately equipped to take advantage of NextGen 
capabilities is one of the most critical challenges to achieving 
success.
    The FY 2012 Budget proposal to create a National Infrastructure 
Bank proposes that equipment in support of the Next Generation Air 
Transportation System (NextGen) could be an eligible activity. Further, 
in response to recommendations from the Secretary of Transportation's 
Future of Aviation Advisory Committee (FAAC), FAA has asked the NextGen 
Advisory Committee (NAC), which includes senior industry participants, 
to provide a comprehensive set of recommendations on equipage and 
operational incentive policies. It is expected that the recommendations 
will be provided by September 2011.

    Question 6. Mr. Secretary, as you know, DOT was not originally 
included in the President's National Export Initiative and you were not 
part of his Export Promotion Cabinet. I thought that was a serious 
oversight because there is an important role that domestic 
transportation policy has in ensuring that the majority of products our 
Nation exports arrives at and departs from our seaports quickly, 
efficiently, and at the lowest possible cost. I sent a letter to the 
President in April 2010 asking that the Department be added to the 
Initiative and you to his Export Promotion Cabinet. I was glad to learn 
that subsequently such actions were taken. What do you think will be 
the most important contributions the Department will make toward the 
goal of doubling our exports within 5-years?
    Answer. The domestic U.S. transportation system, including roads, 
railroads, waterways, and ports, is of vital importance in promoting 
exports, since it provides the means to move those exports from where 
they are produced to export points.
    The most important contribution toward the goal of doubling our 
exports will be in focusing Departmental resources on the 
transportation assets that are in the national interest and that 
improve the Nation's economic competitiveness. The objective is to 
improve the transportation infrastructure that is a key underpinning to 
efficient export supply chains. Our surface transportation 
reauthorization proposal includes an Office of Freight Policy, a 
National Infrastructure Bank (NIB), and a consolidation of highway 
programs that focus funds on an enhanced National Highway System that 
moves 97 percent of truck borne long haul freight. The Office of 
Freight Policy would coordinate freight policy across the modal 
administrations within USDOT, identify a National Freight 
Transportation System, establish a national freight transportation 
strategic plan, and identify opportunities to make infrastructure 
investments on those assets that would make transportation of exported 
products less costly and more reliable. The NIB would use the national 
freight transportation system strategic plan as input to determine 
funding for these critical transportation improvements. The new highway 
program format creates a $16.75-billion Highway Infrastructure 
Performance Program (40 percent of apportioned funds), which will focus 
on improving the state of good repair of the National Highway System--
our key highway network for freight transportation.
    The Pacific Northwest, and especially Washington, will be very 
important to the export initiative, since Washington ports 
(particularly Vancouver and Kalama) export large quantities of grain. 
Other exports, including coal and automobiles, are also expected to 
grow in the near future. The Port of Vancouver received TIGER II 
funding in 2010 to improve rail access to the port.

    Question 6a. Last month, representatives from DOT and the 
Department of Commerce held a public meeting in Seattle with the 
region's large ports, industry shippers, and infrastructure providers, 
looking for input on ways to improve the efficiency of the U.S. supply 
chain in the Pacific Northwest. Thank you for doing that. I don't know 
if the information from the meeting has made it up to you. If it has, 
what are your initial thoughts about some of the unique transportation 
challenges the supply chain faces in the Pacific Northwest? How does 
the Department plan to act on that information?
    Answer. The collaborative effort between DOT and DOC started in 
May, 2009, and we have cemented that effort with an MOU, in which we 
have agreed to develop and promote interagency coordination and 
collaboration and cooperation with stakeholders to improve the national 
economy by promoting a competitive and environmentally sustainable 
supply chain infrastructure. As part of that activity the two 
Departments have held regional listening sessions in Atlanta, Chicago, 
Kansas City and Seattle to better understand transportation 
infrastructure challenges to goods movement in those regions of the 
country, particularly in how that infrastructure can support American 
global competitiveness and the National Export Initiative. More 
sessions are being scheduled for the Gulf, New York/New Jersey, and 
Southern California.
    At the Seattle session, as with several of the other sessions, we 
heard concerns that landside access issues at the major ports were 
constraining economic growth. There were many comments about the need 
for a national freight policy to target Federal transportation 
investments that advanced the Nation's economic interest. These two 
concerns were particularly relevant in the Pacific Northwest (PNW), 
since the Canadian government has put in place their Asia-Pacific 
Gateway and Corridor Initiative, so that Canadian ports are already 
benefiting from investments in key freight corridors that reduce the 
costs of moving goods from these Canadian West Coast ports to central 
Canada. We also heard information specific to the PNW region, for 
example, the need to integrate rural connectivity routes to the main 
trunk lines of cargo movement. As we heard in other regional sessions, 
there were many comments on the need for predictable, consistent 
funding to support transportation projects--not only on the land side 
but on the inland waterways as well. We heard that we, as a nation, 
should put in place performance measures to drive investment on the 
transportation system. The ports stated that they needed the owners of 
the transportation system outside the port to focus on increasing 
network efficiency. The information received from all the regional 
sessions is used by the Departments in many ways, from helping to 
inform the development of the surface transportation bill to helping 
shape the focus of the National Export Initiative. Once the remaining 
outreach sessions are completed, the two Departments will collaborate 
on a document that catalogues the findings.
    As noted in the first answer above, the Department has provided a 
TIGER II grant to improve rail access to the Port of Vancouver for 
grain exports. The Federal Highway Administration and the Federal 
Railroad Administration have been working with the Puget Sound Regional 
Council on the FAST corridor, a coordinated package of road and rail 
improvements between Seattle and Tacoma that will facilitate both 
imports and exports through the two ports.
                                 ______
                                 
     Response To Written Questions Submitted by Hon. Tom Udall to 
                            Hon. Ray LaHood
    Question 1. The budget takes a great step toward achieving the 
President's goal of giving 80 percent of American's convenient access 
to passenger rail by 2025.
    Representing a largely rural state and understanding the critical 
role passenger rail can play for smaller communities; do you know what 
proportion of rural Americans currently have access to passenger rail?
    Answer. Intercity passenger rail plays a critical role in providing 
transportation choices to rural communities, where air and bus service 
options have declined in recent years. The FY 2012 budget recognizes 
this role by including $8.046 billion for the first year of a 6-year 
proposal to set the stage for realizing the President's goal of giving 
80 percent of Americans access to high-speed rail service within 25 
years. The FY 2012 budget also includes $2.3 billion to preserve and 
expand Amtrak's intercity service, which includes long distance 
routes--many of which serve rural America. Although it is difficult to 
determine an exact proportion of rural Americans that are served by 
intercity passenger rail, Amtrak reports that there are 152 stations in 
its network that serve rural communities.
    Additionally, FRA's Railroad Rehabilitation and Improvement 
Financing (RRIF) program provides loans to railroads--including those 
that serve rural America. Examples of smaller railroads that have 
received RRIF loans include: the Great Smoky Mountains Railroad, Iowa 
Northern Railroad, Texas-New Mexico (Tex-Mex) Railroad, and Great Lakes 
Central Railroad.

    Question 1a. Once the system is fully developed, what is the 
anticipated rural coverage?
    Answer. High-speed passenger rail includes the development of a 
three-tiered passenger rail network that allows for the phasing of 
investment over the next 25 years--as communities grow and markets 
mature. Each tier has unique geographic, financial, and technological 
issues associated with the planning and development of specific 
corridors. Of the tiers, emerging and regional corridors will be the 
most important for rural communities. FRA recognizes that different 
communities have different needs, and has taken that into account when 
developing the system.

       National High Performance Rail System: Mileage, Speed, Power, Track, and Population Served by 2035
----------------------------------------------------------------------------------------------------------------
                              Percentage  of                                                      Percentage  of
          Corridor             30,000-mile     Speed  (miles        Power            Track       U.S. Population
                                Network *        per hour)                                          Served **
----------------------------------------------------------------------------------------------------------------
Core Express                     25% to 30%      125 to 250+      Electrified        Dedicated              60%
Regional                                50%        90 to 125   Electrified and   Dedicated and              75%
                                                                       Diesel           Shared
Emerging                         20% to 25%         Up to 90           Diesel           Shared              80%
TOTAL SYSTEM                             --               --               --               --              80%
----------------------------------------------------------------------------------------------------------------
* Preliminary estimates pending the outcome of more detailed national, regional, and state planning efforts.
** These estimates were developed by aggregating the population estimates for all Census-designated metropolitan
  areas that include a potential station on the network.


     Question 2. The budget includes a provision to combine two transit 
programs into one in an effort to provide more flexibility for 
communities to achieve a state of good repair for their transit 
programs. In the budget it states that there is currently a $78 billion 
public transportation system maintenance backlog of which over $50 
billion is attributed to fixed guideway systems. With the proposed new 
mode-neutral formula based on need, I am concerned that small urban and 
rural bus systems may get lost in the mix? How is the DOT planning to 
make sure that this doesn't happen?
    Answer. Both bus and rail systems will be treated equitably in the 
new Bus and Rail State of Good Repair program as both modes have 
significant capital needs. DOT does intend to work with Congress to 
develop a new formula for distributing funds under the new Bus and Rail 
State of Good Repair program. DOT recognizes the importance of crafting 
a formula that addresses the range of needs of the Nation's roughly 
1,300 transit agencies, which are located in large and small cities as 
well as rural communities. DOT plans for the State of Good Repair 
formula to have two tiers--one for buses and one for rail. That way, 
rail systems would not compete against bus-only systems for funds.
    At the end of the day, this program is meant to help bring aging 
transit infrastructure back to a state good repair. The truth is that 
not all transit agencies have equal needs in this regard. DOT's 
overriding interest is getting assistance to the transit agencies--
regardless of location or size of the communities they serve--that 
genuinely deserve it.

    Question 3. In New Mexico, we have several regional transit 
districts. One of them, the North Central Regional Transit District, 
has worked closely with several tribes to improve their access to 
transit and thereby their quality of life. Members of these tribes now 
have reliable transportation to the grocery store, doctor and even 
work. Unfortunately, because of funding constraints, they are unable to 
meet the demands of their tribal communities. I see that the budget is 
proposing to include the tribal transit program as part of the greater 
Transit Expansion and Livable Communities program but that the funding 
remains essentially the same as in past year? How is the DOT proposing 
that the tribes expand their systems to create more livable tribal 
communities? Answer. Regarding funding, the Administration's proposal 
would significantly increase the resources available to tribes, 
starting with the Tribal Transit program. FTA proposes it grow from 
$15.2 million in FY 2012 to $30 billion by FY 2017. Moreover, tribes 
would remain eligible recipients and sub-recipients under the Non-
Urbanized Area formula (or rural program) program, which is slated to 
receive $3.955 billion during the authorization period, including $766 
million in FY 2012.
    FTA also proposes program changes to enable tribes to make their 
communities more livable. For the Tribal Transit program, FTA would 
make it a stand-alone program to acknowledge that tribes are sovereign 
nations. Also, FTA would allow tribes in urbanized as well as non-
urbanized areas to be eligible for assistance. Further, FTA proposes a 
creating a new $50 million Livability Demonstration Grants program, 
through which tribes could apply for grants to undertake livability 
demonstration projects. Moreover, tribes could apply for grants through 
a new $1.7 billion Transportation Leadership Awards program that will 
reward communities that undertake innovative solutions to their 
transportation challenges.

    Question 4. New Mexico is home to many oil and gas pipelines and we 
have experienced tragic accidents in the past. In the wake of the 
recent string of fatal pipeline accidents, the administration's Fiscal 
Year 2012 budget request includes a 13 percent increase in the pipeline 
safety account, from $106 million to $120 million. How many pipeline 
safety inspectors do we have now, how many would be added under the 
Administration's request? Also, what are the potential impacts on the 
Department's pipeline safety activities in the event of a government 
shutdown?
    Answer. PHMSA currently has 102 pipeline safety inspection staff 
onboard and is recruiting to add 15 additional inspection and 
enforcement staff. Under the Administration's FY 2012 budget request, 
PHMSA anticipates 18 additional pipeline safety inspection and 
enforcement staff. Although the agency does not want to speculate on a 
possible government shutdown, PHMSA expects to maintain safety 
oversight of the Nation's pipeline system in the event of a government 
shutdown by keeping a limited number of essential staff working in each 
region and in Alaska while requesting heightened support from its state 
pipeline safety partners.
                                 ______
                                 
    Response To Written Questions Submitted by Hon. Mark Begich to 
                            Hon. Ray LaHood
    Question 1. I am concerned over the Administration's proposal to 
reduce AIP funding by over a billion dollars, expecting airports to 
make up the difference through increased Passenger Facility Charges 
(PFC). Airports are our lifeline in Alaska. Many of our small and 
medium hub airports in Alaska don't have the passenger enplanement 
levels that would allow us to make up for lost AIP dollars by shifting 
the burden to the traveling public. What if any considerations will be 
given to small and medium hub airports that cannot offset AIP funding 
through increased PFC charges?
    Answer. Under the President's budget proposal, total annual funding 
for the Airport Improvement Program (AIP) is reduced from $3.5 billion 
to $2.42 billion in FY 2012. At the same time, the Passenger Facility 
Charge (PFC) limit is increased from $4.50 to $7.00 per enplanement for 
all airports eligible to impose PFCs.
    The proposal is designed to target funds to small airports. The 
large and medium hub airports are able to make up the loss of 
entitlements through the increased PFC, which will free up the 
remaining AIP funding for the smaller airports.
    In FY 2012 small airport passenger and nonprimary entitlements will 
be maintained at levels consistent with formulas in effect under 
current law when funding is above $3.2 billion, and AIP funding for 
Large and Medium hub airports will be suspended.
    Alaskan airports would benefit from this program because: (1) the 
Alaska Supplemental fund is maintained, (2) all Alaskan airports 
continue to retain their entitlements at the same levels that have been 
allocated in recent years, and (3) in FY 2012, the entire discretionary 
fund of over $400 million is available only to smaller airports.
    The FY 2012 budget request also provides for $3.1 billion in 
airport improvement funding from the President's Infrastructure 
proposal targeted at investments in ``Roads, Railways, and Runways.'' 
Airports of all sizes will be able to compete for this AIP 
Discretionary funding.

    Question 2. The terribly tragic collapse of the I-35 Bridge in 
Minneapolis killed 13 people and injured over a hundred others. This 
horrifying event truly captures the dire need for infrastructure 
investment to repair our Nation's crumbling roads and bridges. While 
this event was tragic, it also showed what this country can be capable 
of when it puts its mind toward infrastructure. The replacement bridge 
was built in a year. Did the expedited manner in which the replacement 
bridge was permitted and constructed have any negative impact on the 
structural safety on the new bridge?
    Answer. There is no negative impact on the structural safety of the 
new bridge as a result of the expedited manner in which it was 
constructed. In fact, the new bridge includes structural enhancements 
such as the use of high performance concrete to provide superior 
durability, and multiple levels of structural redundancy, which results 
in a longer lasting bridge that is more economical to maintain. A 
state-of-the-art sensor and monitoring system was also built into the 
bridge that allows for easier and more comprehensive monitoring 
throughout the lifetime of the bridge.
    The speed and efficiency with which the bridge was replaced is a 
testament to a great effort by the Minnesota Department of 
Transportation, working in close collaboration with U.S. DOT and the 
FHWA. Because this project was predicated by an emergency event, 
virtually all project-related functions occurred simultaneously rather 
than sequentially, and occurred at a greatly accelerated pace. The need 
for immediate action supported an extraordinary investment in staff and 
funding. Additionally, during an emergency, State DOTs may use a 
combination of project delivery techniques, contract provisions and 
special administrative efforts to expedite the delivery of a 
construction project that may not otherwise be available.
    For this project, Minnesota DOT used a design-build contract with a 
lump-sum contractual incentive of $7 million if substantial completion 
was obtained before the date bid by the contracting firm, as well as 
other monetary incentives based on a graduated payment scale. In 
addition, the contract provided for an assessment of a $200,000 per day 
penalty for failure to meet the bid date. The contractor worked several 
crews around the clock to meet the target. There was no traffic to slow 
down operations, which is atypical for a road or bridge construction 
project. The permitting requirements for the I-35 bridge replacement 
were also different from the typical new construction project, in part 
because it was contained within the existing project footprint. As a 
result, the environmental review requirements were able to be completed 
using a Categorical Exclusion.
     The I-35 bridge replacement was a unique project completed under 
extreme circumstances. However, a number of project delivery techniques 
applied in that circumstance are transferrable to other projects to 
experience gains in project delivery efficiency. The use of a design-
build contract combines design and construction into a single contract, 
allowing design and construction processes to overlap to reduce the 
lineal process of project development. Employing new technology, such 
as prefabricated bridge elements and multiple fabrication and staging 
areas, offers bridge designers and constructors significant 
construction time advantages. Moreover, these new and proven 
technologies can improve work zone and worker safety, reduce initial 
and life-cycle costs, reduce environmental impact, and improve product 
quality. U.S. DOT looks forward to partnering with State DOTs to 
implement these and other proven project delivery techniques, to safely 
and efficiently expedite project delivery in all road and bridge 
construction projects.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                            Hon. Ray LaHood
    Question. Positive Train Control is an important safety measure, 
but I have grown increasingly concerned that the Federal Railroad 
Administration is requiring implementation in a way contrary to 
Congressional intent. By requiring the railroads to use a 2008 map, 
rather than the projected 2015 route map, I'm concerned that we are 
making an already expensive mandate unreasonable. I've introduced 
legislation to make this requirement more practical. Will you work with 
me to help resolve this issue?
    Answer. Yes, the Department is actively working to address this 
issue. On March 2, the Federal Railroad Administration (FRA) and the 
Association of American Railroads (AAR) reached a settlement agreement 
of the AAR's lawsuit challenging FRA's positive train control (PTC) 
rule. The agreement provides that FRA will issue a notice of proposed 
rulemaking to amend the rule that would potentially mandate PTC 
installation on track segments not specifically required to be equipped 
by Congress.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Hon. Ray LaHood
    Question 1. Mr. Secretary, I understand that the Department plans 
to transition the tax-free transit commuting benefit provided to 
Federal employees from paper vouchers to bank-issued debit cards. I 
also understand that the Internal Revenue Service has explained to your 
staff that debit cards may only be issued for transit services for 
which vouchers are not readily available. However, I understand that 
the DOT may be pursuing a use of such debit cards in a manner that 
could jeopardize the tax-free nature of Federal employees' transit 
commuter benefits. I certainly would not want these employees to 
sustain a tax increase just to switch from paper to plastic. Will you 
assure me that the DOT will not proceed with any such debit card 
program until the Treasury Department has certified that it meets the 
requirements of the Internal Revenue Code and IRS regulations?
    Answer. Thank you for your inquiry regarding the actions the U.S. 
Department of Transportation (DOT) has taken to transition from a paper 
based transit fare media environment to an electronic process. You have 
my assurance that DOT will not proceed with a debit card program that 
jeopardizes the tax-free nature of the Federal employees' transit 
commuter benefits. Currently, my staff is working closely with the 
Treasury Department and Internal Revenue Service (IRS) to ensure that 
DOT remains in compliance with the requirements of the Internal Revenue 
Code and IRS regulations as it transitions from a paper voucher system 
to a debit card program.
    The Federal Transit Benefit Program is an important tool to help 
address the congestion and air pollution issues affecting the National 
Capitol Region (NCR) and cities across the Nation. DOT wants to ensure 
that it is implemented properly to get commuters out of single 
occupancy vehicles and onto mass transit, to save fuel, and to reduce 
congestion and pollution. TRANServe is working to help ensure that the 
program serves its intended purpose.

    Question 2. Could you elaborate on how the proposed national 
infrastructure bank would be organized? Will it be housed in the Office 
of the Secretary? How would projects be selected, and would there be a 
mechanism to ensure fair geographic distribution of the funds? How, if 
at all, would the fund be useful to rural states?
    Answer. The National Infrastructure Bank (I-Bank) will be a new 
entity within the Department of Transportation reporting to the 
Secretary and headed by an Executive Director who is appointed by the 
President and confirmed by the Senate. I-Bank investments will be 
overseen by an Investment Council that is comprised of senior 
Department of Transportation officials, including Administrators from 
modal administrations, and the heads of other departments and agencies 
of the Federal Government. The Investment Council will consider 
investment proposals sourced by the I-Bank and submitted by the 
Executive Director for a funding recommendation. Proposals approved by 
the Investment Council will be submitted to the Secretary for a final 
approval.
    The I-Bank will provide benefits to rural states. Projects that 
support rural communities such as bridges, highways, and rail are 
eligible for funding through the I-Bank. Another benefit to rural 
communities is that projects may receive ``seed money'' grants to help 
with planning and design. However, the I-Bank will not require any 
specific geographic distribution for its investments. Instead, the I-
Bank will base its investment decisions on clear analytical measures of 
value-for-cost and level of non-Federal co-investment, the I-Bank will 
evaluate projects against each other to determine which will produce 
the greatest return for American taxpayers.
                                 ______
                                 
   Response To Written Question Submitted by Hon. Roger F. Wicker to 
                            Hon. Ray LaHood
    Question. The President's FY 2012 budget proposal includes funding 
to create a new distracted driving incentive grant for states through 
NHTSA's Highway Traffic Safety Grant Program. What specifically does 
the Administration propose as requirements for a state law to qualify 
to receive funding under this new grant? If a specific proposal is not 
available, what does the Administration recommend should be included in 
the requirements for a state law to qualify?
    Answer. The Department proposes to establish a new $50 million 
Distracted Driving Prevention Grant program for states which enact and 
enforce laws to prevent distracted driving, such as prohibiting texting 
while driving. As of March 2011, 30 states and the District of Columbia 
had legislation banning texting while driving for all drivers, while a 
number of other states had laws covering specific types of drivers, 
such as novice drivers or school bus drivers. Eight states and the 
District of Columbia have laws prohibiting all drivers from using hand 
held cell phones while driving. The Department will take into 
consideration the scope of these existing distracted driving laws in 
determining criteria for any distraction grant funding authorized by 
the Congress. Issues to be considered in implementing a grant program 
could include primary vs. secondary enforcement of a law; minimum fine 
structure for first and repeat offenses, enforcement efforts and public 
information and education efforts.

                                  <all>

</pre></body></html>
